<html>
<title> - IMPLEMENTATION OF NATIONAL FIRE PLAN IN COLORADO</title>
<body><pre>[Senate Hearing 107-755]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-755
 
                 IMPLEMENTATION OF NATIONAL FIRE PLAN 
                              IN COLORADO
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 on the

                  IMPLEMENTATION OF NATIONAL FIRE PLAN

                               __________

                              MAY 18, 2002

                               GOLDEN, CO










                       Printed for the use of the
               Committee on Energy and Natural Resources



                          U.S. GOVERNMENT PRINTING OFFICE
82-710                            WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                         Kira Finkler, Counsel
                Frank Gladics, Professional Staff Member







                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Cables, Rick, Regional Forester, Rocky Mountain Region, Forest 
  Service, Department of Agriculture.............................     6
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     1
Hubbard, James E., Colorado State Forester.......................    12
Tombolato, Michael, Chief, Cherryvale Fire Protection District, 
  Boulder, CO....................................................    21
Udall, Hon. Mark, U.S. Representative from Colorado..............    33
Wells, Scott, Director, Critical Incident Response, Jefferson 
  County Sheriff's Office, Golden, CO............................    23


            IMPLEMENTATION OF NATIONAL FIRE PLAN IN COLORADO

                              ----------                              


                         SATURDAY, MAY 18, 2002

                                       U.S. Senate,
                  Committee on Energy and Natural Resource,
                                                        Golden, CO.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
Forest Service Region 2 Auditorium, 740 Simms Street, Golden, 
Colorado, Senator Ben Nighthorse Campbell presiding.

      OPENING STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Good morning. I think we're going to go 
ahead and start this committee hearing in session, even though 
I'm the only one. Welcome this morning. I wish we were here 
under different circumstances and a little better year in terms 
of forest fires, but we're doing this committee hearing so I 
can gather information for the full committee, and everything 
will be a matter of public record. And you're welcome to turn 
in any written testimony, too, but we intend to share this with 
our colleagues when I get back to Congress.
    I don't have to tell you what a bad year it is. I'm sure 
most of you already know that, but as I understand it, we've 
already had 283 fires this year up from 54 we had last year, 
which was considered the worse fire season in Colorado's 
history. I requested this hearing because we are at a time when 
we have seen our surplus disappear. We're going to be moving 
into a year of deficit again, and we need to continue to 
prioritize the fire, the mechanism which we provide funds to 
fight fires from the congressional level, but clearly, we don't 
seem to be able to prevent them, we seem to be getting worse 
every year. I'd like to, when we have the professionals 
testify, learn more about that.
    But I note with interest that most of our people in the 
audience are the professionals, or they have some close 
relationship to the problem we face, and not too many just 
private citizens whose lives or property may be affected 
because of the disastrous fire.
    Clearly, though, fire affects all types of lands and all 
walks of life. It doesn't stop at Federal or State or private 
boundaries. And that's why we have a cross-section of the fire-
fighting community here to testify for us today. We have Mr. 
Jim Hubbard, the Colorado State forester. We're also pleased to 
have the U.S. Forest Service Rocky Mountain Regional Forester, 
Mr. Rick Cables, to help us look at this complex issue from a 
Federal standpoint.
    And making sure that we know what's actually happening on 
the ground and as our Nation reviews strategies and how to best 
implement and coordinate, we have Mr. Scott Wells, the director 
of Jefferson County's Criminal Incident Fire Response, and Mr. 
Mike Tombolato, the District Chief of the Cherryvale Fire 
District too. So thank you for being here. And I think that's 
all the people that will be testifying. But we'll go through 
testimony. I'll ask a few questions, and then we have a couple 
of open microphones set up, if there's anybody who would like 
to make a statement, we'll keep a portion of the time for you 
to be able to do that, too.
    Through Wednesday of this week, we have lost over 603,644 
acres of forest and range land to fires nationwide with over 
25,900 of those being lost in the Rocky Mountain region. One 
only has to look back through the national fire incident 
reports starting in April through the first week of May to 
understand how fire is changing all of our lives. We started 
out on April 19 with two fires on the Pike/San Isabel National 
Forest and one in the Arapahoe-Roosevelt National Forest, Topaz 
Mountain, Hewlett Gulch and Cedar Mountain.
    By April 21, the Hewlett Mountain fire had grown to 500 
acres, Topaz Mountain was up to 325 acres, and a new fire 
called the Snake had started and burned 1,800 acres and two 
structures. On May 4 and 5, the Hanover fire burned over 5,000 
acres, and the Black Mountain fire started near Clear Creek. 
Although, relatively small by May 7, it was very close to town, 
and fire managers indicated that over 1,700 residents were 
endangered and many had to evacuate.
    They say a picture is worth a thousand words. And I've 
asked staff to bring a couple of maps here to show you the 
difference of what has happened the last few years. This first 
map, and I direct you up here where my staffer Brandi is, that 
first map shows the average moisture content and the vegetation 
of our Nation in late April for the year 1996. As you can see, 
that was a very moist year beginning in May, but still burned 
that year over 6.7 million acres.
    You can also see that most of those acres were further in 
the east, around the Mississippi Delta or some of the plain 
States, but where we live in Colorado, look at the size of the 
snowpack. It was good. Most of it's green. A couple of the 
brown areas down in the Southwest and the Southeast, but 
generally, it was a year that we think was relatively good.
    Now, Brandi, if you take that map, maybe, and hold it up 
next to the next one, the next one is the year 2000, just 4 
years later, the year that Los Alamos burned. By the way, we 
had a very bad start. By the end of May, we had burned over one 
million acres with a total of 8.4 million acres for the year, 
and look how green that vegetation is. Look at the difference 
between those two areas of Colorado just in that amount of 2 
years.
    And we have a third one, too. And this one is 2002. And if 
you'll look at the lack of moisture we are facing this year, 
look at how brown we are, and it's only May. How little 
snowpack there is, too, between even 2000 and 2002. It's 
clearly, you know, when you read the papers and you see the 
news about the great floods, they're sure not here. You can see 
how green it is in just around the Mississippi Valley area, 
Mississippi Delta area, but clearly, here in the Rocky Mountain 
range from Canada to Mexico, it is a dry, dry year. That 
doesn't come as a surprise to anybody, but in the relative 
difference between what we had just a couple years ago and now, 
that should give us a big indication of what we might be facing 
this summer.
    One thing I don't show, of course, on any of these maps is 
all the new homes that are being built in high-fire areas as 
Colorado grows in population. We're the fourth fastest growing 
State, as you know. And many of the people in our inward 
migration, they came to this beautiful State because they want 
to be near the mountains, and they want to be on some nice 
secluded dirt road right out there where they land butts up 
right up to the national forest.
    Sometimes they came to an area where it's a 10-minute 
response for the local fire department, if anything goes wrong. 
And I think many of them probably fail to recognize that they 
may be an hour or even two away from getting a response to 
their house if it's in an area that they picked for their 
future home.
    Now, of course, that doesn't lessen our responsibility to 
try to do what we can in terms of saving lives and saving 
property, too. And in my view, we are doing a pretty good job, 
but this hearing, of course, is to try to find out how we can 
do a better job.
    And I expect our witnesses today will tell us that this 
could be the worst fire year in decades. But the main reason 
is, as I mentioned already, I'm really more interested in how 
we're going to coordinate and use the resources we have and 
what we can do in Congress to make it a little better.
    Some time ago, the Government Accounting Office reviewed 
how well the Government has worked at implementing the National 
Fire Plan. The results of that study were, frankly, pretty bad. 
The committees had a hearing on that issue recently, so I don't 
want to revisit that whole thing, but I only want to mention a 
couple of conclusions that were reached.
    First, over half of the Federal land management units still 
do not have a fire management plan meeting the requirements of 
the 1995 National Fire Management Plan. Therefore, these units 
cannot fully determine the level of personnel or equipment that 
they need.
    Furthermore, the Forest Service and the Department of the 
Interior have not developed performance measures to determine 
the extent to which the additional resources have resulted in 
more effective fire-fighting. Therefore, any new money we put 
in the appropriation process in Congress necessarily isn't 
being used well if we don't have a plan on how to use it.
    From 1952 to 1997, net annual soft growth has more than 
doubled in the West, and I think sometimes we call this the 
``politics of fire.'' And the politics of fire means the push 
and pull about whether we should glean the forests or whether 
we shouldn't, and how it relates to decision-makers and their 
decision-making ability. But it also means that in our national 
forests alone, about 73 million acres are now at risk from 
wildlife fires which could affect human safety.
    Unnaturally dense forests also tend to be a breeding ground 
for all manner of insects, pests and pathogens that make trees 
even more prone to fire damage. And I'm sure I'm not telling 
that to anyone in the room that's a professional that it 
doesn't come as a surprise to them. But in order to make our 
forests more manageable and to prevent wildfires from raging 
out of control, we need to thin the unnaturally dense forests. 
There are only two acceptable ways that I know of, though you 
may enlighten me if there are more, to get that mission done, 
one is through prescribed burns, and the other is through some 
kind of manual thinning of the forests of excess trees that 
could become fuel.
    There is a third way, I suppose, but I don't think it's 
really an acceptable way, and that's to let these things get 
away and rage out of control into some kind of an inferno that 
threatens everybody, including all of us in this room.
    Managing prescribed burns provides a whole host of 
challenges. However, administering prescribed burns under 
severe drought conditions like Colorado's currently facing is 
practically impossible, or at least very difficult, because so 
many of them risk getting out of control and, of course, that's 
what we saw in New Mexico last year with the Los Alamos fire; 
it was supposed to be a prescribed burn.
    Therefore, the option we're left with under conditions such 
as this year, I believe, is thinning the forests. Clearing the 
excess small density timber from the forests not only improves 
forest health and diminishes the likelihood of damaging 
wildfires, but it can also be a boon to the local business. But 
it is not cheap. It costs anywhere from $150 to $500 an acre to 
remove and destroy trees. And, in fact, in some roadless areas, 
it can be a lot more expensive than that.
    I have heard of using helicopters that take them out. I've 
heard of dragging them out with teams of horses in roadless 
areas. All that is much more expensive than using mechanized 
tools. Those costs could be offset in some ways by enlisting 
the private sector that uses what would have normally been 
thrown away, and that is the trees that are gleaned out of the 
forest.
    Congress and the Federal Government recognize the 
multiplier benefits of the forest to taxpayers and to local 
businesses by providing what was called ``stewardship 
contracting'' authority to Federal agencies, which is basically 
the Federal agency signing a contract with private people who 
would take dead trees out.
    Over the last several months, we have addressed forests and 
forest health risk during the debates over the energy bill and 
the farm bill, in fact, both of them. During each debate or 
conference, some of our members in Congress worked and, in 
fact, did eliminate programs that would help our Federal land 
managers deal with the overstocked forests from which we now 
suffer, and so our stewardship contracting is literally at a 
halt.
    First, during debates on the energy bill, we saw an attempt 
to diminish the potential of the Renewable Energy Program by 
defining biomass that comes from the national forest as only 
brush and slash and precommercial trees. Properly defined, the 
biomass provision would be a win-win situation for our energy 
needs and the community needs and our forest if that was 
broadened.
    In the farm bill, opponents killed a proposal to approve a 
stewardship contracting and biomass energy grant program during 
the bill conference. And why? Well, very simply, in short, most 
of the extreme views in the environmental groups in this 
country simply do not want timber harvested from the national 
forest.
    Fully 54 percent of our national forest timberlands are 
stocked with trees that are less than 13 inches in diameter. 
That's over 52 million acres out of the more than 96 million 
acres of national forest lands that are considered to be 
forest. These are the forests that are overstocked with 
hundreds and sometimes even thousands of trees per acre.
    One hundred years ago, we had roughly 40 to 50 trees per 
acre. These are the very same areas, the very same stands where 
we used to have small, low-intensity fires that the forests and 
communities could deal with. These are the very forests that 
our experts tell us that we must salvage. These are the ones 
that have sometimes three to 500 trees in the same area.
    And that is why the Western Governors developed a 
collaborative 10-year strategy for reducing wildlife fire risk 
to communities and the environment. That strategy was signed in 
last August of last year by the Western Governors and the 
Secretary of the Interior and Agriculture. I cosponsored a 
concurrent resolution with Senator Craig and Senator Feinstein 
that calls for the full implementation of that policy and will 
introduce a copy into the record this morning.
    But we know fire is an indiscriminate killer of man and 
property. And all the experts, science, and facts show us that 
the build-up of hazardous material in our forests is severely 
jeopardizing our ability to prevent and control fires. Then why 
do we continue attempts to prohibit responsible forest 
management, incorporating forest thinning and stewardship 
contracting? Well, it relates, of course, as I mentioned, to 
the politics of fire, but we simply do not have the political 
will of Congress yet to do more.
    And I would just recommend to those people who have always 
opposed any thinning, opposed any cutting, that maybe they 
ought to come out here for a while in the dry west and live out 
there near the forest for a while and have the unfortunate 
experience that some people in Colorado have had.
    I don't have to tell the people in Colorado who watched the 
1999 fire when it devastated the Buffalo Creek drainage that 
the no-touch approach is not working. One only has to go up 
Buffalo Creek, and I have not been there myself, but my staff 
has, they tell me the devastation of the watershed that was 
brought on with thunderstorms after that fire was a terrible 
thing. And I'm sure the city of Denver and those communities 
that have to do the dredging of the water storage areas that 
fill up with silt understand the catastrophic result of it, 
too.
    It's simply unfair to expect our firefighters and 
communities across the country to face worsening fire 
situations when we do know how to change, when we do know how 
to fix it. And I submit we're simply not going to improve the 
health of the Nation's forest by just letting it build up and 
build up more and more.
    Well, let me stop there and welcome our people that are 
going to testify today. And with that, maybe, let's see, why 
don't we just start from left to right? Or maybe we should 
start with the Federal level first. Maybe we'll start with Rick 
first and work our way down to the local. Rick, why don't you 
go ahead. Thank you for being here.

  STATEMENT OF RICK CABLES, REGIONAL FORESTER, ROCKY MOUNTAIN 
             REGION, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Cables. Well, good morning, and welcome to the USDA 
Forest Service Rocky Mountain Regional Office. We're really 
pleased to be able to host this, and we're really pleased that 
you decided to have a field hearing right here in our backyard. 
It certainly makes it convenient for us. I've prepared written 
testimony which we've submitted, I know you have copies, and 
there are some more copies over there on the table for anyone 
else who'd like a copy.
    Senator Campbell, I want to express our appreciation to you 
and the committee for allowing us to have this hearing here in 
Lakewood and discuss the National Fire Plan. I also would like 
to thank you and members of the committee for your support of 
the National Fire Plan and the Fire Management Program, but 
more importantly, for your support of the fire-fighting 
community. Our firefighters do an impressive job under 
extraordinarily adverse conditions, and they deserve our 
appreciation, gratitude, and admiration for the services they 
provide to the public.
    The issue of fire management in the Rocky Mountain region 
in Colorado is of the highest urgency, as you've already 
pointed out, with the drought conditions we have this year. 
We've already had four large fires, two of them right here 
outside of Denver over the past month alone that have 
threatened life, property and watersheds.
    I would also like to thank Governor Owens and his cabinet 
officers and the State agencies and, particularly, the State 
forester, Jim Hubbard, the county sheriffs, the volunteer 
firefighters and all the city council, county, State, Federal, 
and tribal firefighters for their hard work in providing for a 
safe and efficient initial attack on wildfires.
    When it comes to fire-fighting, the color of the uniform 
doesn't matter. What matters is our joint capability to respond 
quickly, decisively and safely. Colorado is fortunate to have 
our Interagency Unified Incident Command leadership for these 
catastrophic events, and I believe this is one of the places 
where we have the best coordination in the Nation, and we're 
going to talk about that a little bit.
    So thank you for the opportunity. I'm going to take just a 
few minutes and, you mentioned the Buffalo Creek fire, and 
share with you, 6 years ago today, the Buffalo Creek fire 
started, May 18, 1996. I was with my daughter at a soccer game 
in Denver. At that time, she was 10 years old, and we had a 
real hot, dry spell. I remember we were spraying the girls with 
mist to keep them from overheating.
    At about 1 o'clock, we started heading home. At that time, 
I was the forest supervisor on the Pike and San Isabel National 
Forest which is where the Buffalo Creek area is. We started 
driving down the interstate to Colorado Springs, and I looked 
over to the west, and I could see this plume of smoke coming up 
over that country on the Pike around Buffalo Creek. And from 
the time I left that soccer game to the time I got to Colorado 
Springs, which was about an hour and 15 minutes, I would guess 
that fire went from about a 50-acre fire to probably 5,000 
acres.
    Senator Campbell. In how long?
    Mr. Cables. In just an hour, hour and 15 minutes. It was 
cranking. You could see this plume of smoke that was just 
phenomenal. And, of course, I knew the minute I saw the initial 
plume that we were in trouble, because the winds were up, we 
had an extended dry period. I grabbed my fire gear, turned 
around, and headed back up here, and in this very room, we 
staged our fire teams and did the war-planning for that fire.
    It was too windy to fly that day. We couldn't get our air 
tankers up. We couldn't put any slurry on the fire. Our hotshot 
crew from the Pike National Forest, the Pike Hotshots, got to 
Buffalo Creek, the community and the subdivisions, fortunately, 
ahead of the fire and, with the local fire department and 
volunteers, were able to protect most of the structures. We 
lost structures on the Buffalo Creek fire, but not nearly what 
we could have. Miraculously, no one was killed or injured that 
day seriously, but by the time that fire was done and it was 
one burning period from about noon to 6 p.m., it had consumed 
12,000 acres.
    I remember about 3 days later standing in front of a public 
meeting in a community center in Buffalo Creek, and I been 
working for the Forest Service about 25 years, and this was the 
most difficult public meeting I've ever been to, because you 
had folks there that had been evacuated from their homes. We 
had people there that had lost their homes, hadn't slept for 
days, angry, upset, afraid, demanding accountability, which I 
can appreciate, and we had to host this public meeting in this 
community center and listen to these concerns, and folks were 
mad. They said, how did it happen? Who started the fire? And, 
you know, of course, fingers were pointing, and it was very 
difficult.
    But that fire was started by a campfire that got away. It 
was a man-caused fire, and it was just one of those situations 
where, once we got a start, that we were not going to catch the 
fire that day.
    That very community center where we had that meeting, about 
2 months later, was washed down the river in the ensuing flood 
that we had. And we had multiple flood events, as you pointed 
out, filled up Stauntia Springs reservoir, which is the last 
holding reservoir for Denver water on the South Platte 
drainage. And if you go to South Platte, or if you go to the 
Buffalo Creek fire area, even today, we've got invasive species 
problems. We've got a sea of black sticks that are there where 
once we had a forest, and it's not a very pleasant sight. And 
it's been extremely expensive. We estimate we've probably spent 
$25 million over the course of time between fire-fighting 
efforts, rehabilitation, the Denver water dredging reservoir 
and so on and so forth.
    And I guess if there were ever a place where you could look 
at where all these factors come together that you just talked 
about, it would be the Buffalo Creek fire area. And I guess the 
most compelling thing to me was, I was responsible, felt 
responsible. Our agency felt responsibility for helping prevent 
the fire, to get crews on the fire, to put the forest in a 
condition to prevent it. And, of course, we weren't there. We 
didn't start the fire, that was just something that happened.
    But when you're in these jobs like some of us are in, you 
feel the responsibility when those kind of events occur. And 
that could be the end of the story, but, in fact, it was really 
just the beginning, because from that fire, we cooperated with 
the Colorado State Forest Service and built the red zone, what 
we call the Red Zone Assessment in Colorado where we looked at 
fire risk, fire hazard and values, and basically, that's just a 
bunch of jargon to say, where are houses in the forest? Where 
do people live inside the forest?
    We built an assessment in 1996, it's been updated, and 
those two maps to the left show that. And I'm sure Jim Hubbard 
will touch on that some more. If you look at this map over 
here, we've got all the National Fire Plan projects across all 
the agencies in Colorado. Down here, we've got all the 
different agencies that were involved with us, State, local, 
Federal. Colorado has one of the most comprehensive integrated 
approaches to the fire plan of any State probably in the Union, 
in my view, anyway.
    So then in the year 2000, we had the Bobcat and Hi Meadows 
fires right up here outside the Front Range, and that was kind 
of the last feat with the bitter root fires that put in place 
the National Fire Plan. And the political will, everything 
lined up, it seemed to help fund the National Fire Plan which 
has been a tremendous help to us in not only having 
firefighters, but also dealing with the hazardous fuels you 
referred to.
    And when we get into maybe some question and answers, I'll 
go through some of the things we've done. But I just want to 
reinforce, this is a personal thing, I think, to those of us 
that have to be accountable when we're standing there with 
folks that have their homes threatened or you're standing with 
people that have evacuated their homes and they're afraid. And 
we take it very seriously. And we're really trying to make the 
best use of the dollars that Congress has allocated through the 
fire planning.
    The other thing I'd say, the BLM in Colorado, and again, if 
you look at that map, all the yellow is BLM lands, has been a 
tremendous partner, so we're working really closely with 
Interior, and our Forest Service research folks, and John 
Tolver is here from Rocky Mountain Research Station, sitting 
right behind me, have initiated several research programs with 
dollars available through the National Fire Plan to help us 
look at the issues around fire. So with that, I'll stop. I'll 
be pleased when the questions come to answer whatever questions 
you may have. And again, thank you for being here.
    [The prepared statement of Mr. Cables follows:]
 Prepared Statement of Rick Cables, Regional Forester, Rocky Mountain 
           Region, Forest Service, Department of Agriculture
    Mr. Chairman and members of the committee: Thank you for the 
opportunity to meet with you today. I am Rick Cables, Regional Forester 
for the Rocky Mountain Region, USDA Forest Service.
    At the outset, Mr. Chairman, I want to thank you and members of the 
committee for your support of the National Fire Plan and fire 
management program and, most importantly, for your support of our 
firefighting community. Our firefighters do an impressive job under 
adverse conditions and they deserve our thanks and admiration.
    Today, I will talk about the potentially severe fire season now 
underway, and how the land-managing agencies and our partners in the 
Rocky Mountain area are making preparations. While we prepare to fight 
fire this season as best we can, fighting wildland fires is only one 
aspect of the work we must do to protect communities and restore 
ecosystems.
    Fires in recent years, especially those that have occurred in the 
Front Range, have heightened our collective awareness for firefighter 
and public safety. The Buffalo Creek Fire, started six years ago today, 
when I was the Pike/San Isabel Forest Supervisor, clearly illustrated 
the impact and cost of the offsite effects of wildfire as experienced 
by the effects of sedimentation on Strontia Reservoir. The Hi Meadow 
Fire in June 2000 showed us not only the impact of losing homes, it 
also demonstrated that vegetation management along with the use of 
prescribed fire can make a difference in the reducing the severity and 
spread of wildland fire.
                     the fire situation and outlook
    The outlook is for a severe fire season this year. As you know, we 
have already experienced a number of wildland fires in Region 2. The 
Interior West continues to experience severe drought conditions. Our 
below average snow packs and early runoff have affected a wide cross 
section of users and communities. For us, it means that fuel moistures 
in the forests have not recharged and in many areas are at lower levels 
than 2000, a very difficult fire year.
    The National Interagency Fire Center (NIFC) in Boise has provided 
us with a long range weather outlook for later this summer and fall 
that calls for generally warmer than normal temperatures in the West. 
Rainfall, however, is predicted to be near normal through this period. 
The high temperatures and near normal precipitation coupled with the 
extended drought conditions increases the fire potential in the Rockies 
this summer and fall.
                       wildland fire preparedness
    Each year, the interagency effort in Region 2 works to provide an 
overarching effort in all elements of the fire management programs. 
These include prevention and public activities, preparation and initial 
attack, large fire support, fuels reduction programs and effective 
support of communities in a host of cooperative efforts. Interagency 
cooperation has long been the cornerstone of effective wildland fire 
fighting. In Colorado, this has been evident with the excellent working 
relationships between Federal, Tribal, State, Local governments and a 
host of dedicated volunteers. The cooperation is most evident in 
Colorado State Forest Service's sponsorship of the annual Wildland Fire 
Academy. This interagency effort continues to be anchored in providing 
standards for safety and coordination, offers a variety of wildland 
fire training courses and is attended by well over 900 firefighters. 
The effort has spawned similar efforts in New York and Texas.
    We in the Rocky Mountain Region consciously focus on safety. We 
have taken a pledge ``never to forget''. The legacy of the South Canyon 
Fire in Glenwood Springs remains with us and continues to guide us in 
our efforts. Firefighting is a high risk, high consequence activity, 
and the Forest Service has always had strong firefighter safety and 
training programs. This year, however, following the Thirty-Mile Fire 
tragedy in July 2001, where four firefighters lost their lives, 
nationally we have redoubled our efforts. The Thirty-Mile tragedy 
prompted an examination of the programs to identify areas needing 
improvement. The areas identified include managing firefighter fatigue, 
reinforcing use of the 10 Standard Fire Orders and the 18 Watch Out 
situations, and developing training to avoid entrapment by fire. All of 
these improvements in training and safety are in place for this fire 
season.We are committed to doing everything we can to improve 
firefighter safety.
    We have also purchased and maintained firefighter personal 
protection gear and engines, other vehicles, and contracted for 
helicopters and airtankers services. Preparedness also includes 
assisting other Federal agencies, Tribes and States with fire training 
programs, planning assistance, shared equipment use contracts, and 
support for interagency fire coordination centers.
    In 2001, we made a great start toward increasing our preparedness 
resources, thanks to the National Fire Plan funding. In Region 2, the 
Forest Service treated over 58,000 acres to reduce fuel loads and 
protect priority communities at risk. We will continue this success in 
FY 2002 and are funded to treat approximately 70,000 acres. We are in 
the process of completing another revision of the ``Red Zone'' 
assessment for Colorado in cooperation with the Colorado State Forester 
and Department of the Interior agencies. We are completing a similar 
assessment in Wyoming in partnership with the Wyoming State Forester 
and our Interior counterparts in Wyoming. These kinds of assessments 
will help us prioritize preparedness and fuel treatments in those 
States.
    In FY 2001, we hired approximately an additional 182 new permanent 
employees and 289 seasonal firefighters that brought our firefighting 
workforce to near 800 permanent and seasonal employees. We also 
acquired 13 additional engines. That figure includes an additional 20 
person hotshot crew (the Roosevelt Hotshots in Fort Collins). In 2002, 
we are bringing on an additional hotshot crew on the San Juan NF, 
bringing the Region's total to 5 hotshot crews. Our additional 
investments in upgrading airtanker bases have already proven to be 
effective investments, both in initial attack and for large fire 
support. We continue to monitor fire conditions and this year have 
already fought fire as early as January. We have been proactive with 
the use of severity funding and brought additional resources such as 
helicopters and airtankers on early. In addition, we are working hard 
at bringing on fire personnel early and where appropriate adjusted 
training to insure that all personnel meet currency standards before 
being assigned. The Snaking Fire and the Black Mountain Fire, both with 
high potential for damage in the wildland urban interface, demonstrated 
lessons learned with increased coordination and improved tactical 
operations among cooperating fire fighting agencies.
    Interagency coordination and oversight with Interior agencies and 
State and local agencies is active in Colorado, Wyoming, Nebraska, 
South Dakota and to a lesser degree in Kansas. Coordination taskforces 
and teams meet regularly to evaluate programs and identify priorities. 
Their collective focus is on effective planning and program delivery at 
the local level. In Colorado for example, the interagency effort is 
focused on working with Colorado Counties Incorporated to prepare 
county-wide fire management plans. In addition, we have co-sponsored an 
innovative approach to public education and fire prevention in a 
cooperative effort with the Red Cross. The Interior agencies and the 
Forest Service have established teams in Wyoming and Colorado to 
expedite consultation required by the Endangered Species Act.
    In addition to our federal firefighting crews, we call upon many 
other firefighting forces for assistance. Our working relationship with 
our State and local partners has never been stronger. Often, State and 
local firefighters are the first to respond to fire incidents.q04
                        community assistanceq01
    In Region 2, the Forest Service provided over $9 million to states, 
volunteer fire departments, and local communities to assist 
firefighting activities in 2001 and 2002. With these grants our State 
and local government partners purchased fire equipment for volunteer 
fire departments, Rural Fire Departments and developed hazard 
mitigation plans and projects. Agreements have been made and grants 
awarded to provide a wide range of fuels activities with efforts 
ongoing and still underway. In addition, we have contributed to 
community fire planning, developed market utilization of small diameter 
material removed through thinning activities, and conducted fire 
prevention and fire education training.
    It is important to note that we and other land management agencies 
have updated fire management plans to be consistent with Federal 
wildland fire policy, with a goal to have all plans updated in 2004, if 
not sooner. Region 2 has updated approximately 50% of our plans and 
will complete the remainder before 2004. The fire management plans are 
important because they are the major link to land and resource 
management plans and provide the guidance for fire management officers, 
line officers and incident commanders to plan for fire management 
programs, and to make decisions when an incident occurs, as to the 
appropriate techniques and tactics for effective wildland fire 
response.q01
                     2002 fire season readinessq01
    With the forecast for a severe wildland fire season, Region 2 began 
early and continues to bring fire readiness capacity to its highest 
level. We currently have approximately 715 permanent and seasonal 
firefighters available Region-wide. We are also currently recruiting 
additional firefighting resources and expect to have 50 more 
firefighters by the end of June.
    When we realized the severity of the wildland fire outlook, we 
began to hire seasonal firefighters early and we are working to place 
firefighting crews and equipment in locations where they can be 
mobilized quickly and effectively.
    When local areas anticipate or experience above normal fire 
activity, we have the authority, through what is known as ``severity 
funding'', to provide suppression funds to those units so that they can 
bring in additional staff and equipment to improve initial and extended 
attack response capabilities and increase prevention activities. 
Already this year, the Forest Service has approved authority of over 
$800,000 for severity assistance for Region 2. Federal wildland fire 
agencies have enhanced initial attack capabilities by pre-positioning 
resources ranging from airtankers, to hand crews, to engines in 
strategic locations.
                          reducing fuel loads
    Fighting wildland fire is only one part of addressing the long-term 
buildup of hazardous fuels in our forests and grasslands. Reducing the 
risks and consequences of severe wildland fires is a high priority for 
the Administration. Bipartisan Congressional support has provided the 
Forest Service and the Department of the Interior with the necessary 
funding to increase the amount of acreage treated to reduce risks to 
communities and ecosystems. The importance of reducing fuel loads has 
been recognized for some time as an important issue in Region 2. The 
Rocky Mountain Region maintains an active internet website to track and 
display information about the National Fire Plan. This site provides 
the viewer with a spatial view of fuels projects along with project 
descriptions and key contacts. You can sort projects by state, 
congressional district, county and forest.Also, in Colorado, we have 
utilized the Colorado ``Good Neighbor'' Agreement process to allow the 
Colorado State Forest Service to work on National Forest System lands 
to aid in conducting hazardous fuel treatment projects that affect both 
agencies.
    Nationally, the Departments are beginning this year to develop a 
common interagency fire budget planning process that will better refine 
wildland fire management readiness resources. The process will provide 
all agencies with a uniform, performance-based system for identifying 
the preparedness resources necessary to deliver a cost effective fire 
management program.This system will be deployed by the 2004 fire season 
and will influence readiness decisions for the 2005 fire season. Region 
2 will be part of this effort.
                     restoration and rehabilitation
    In addition to preparedness and hazardous fuels reduction, the 
Region has a number of extensive restoration and rehabilitation 
projects that were the result of the fires of 2000 and 2001. The Region 
received over $7 million in FY 2001. This funding was used to complete 
restoration projects on land impacted by fires such as Jasper on the 
Black Hills National Forest, Hi Meadows on the Pike and San Isabel 
National Forests and the Bobcat Fire on the Arapaho and Roosevelt 
National Forests. Projects funded and completed included noxious weed 
control, hazard tree mitigation along roads and trails, erosion control 
measures, and private property corner re-establishment. In FY 2002 the 
region received over $5 million to continue the restoration activities 
on the fires of 2000 and do additional work on 2001 fires.
                                research
    The Rocky Mountain Research Station, headquartered in Fort Collins, 
is active in National Fire Plan research across 13 states of the 
Interior West. Station scientists received $8.2 million of National 
Fire Plan funds for fuels and fire research in the Rockies and West. 
Their studies will provide valuable information to support 
implementation of the National Fire Plan by our forest managers in 
Region 2 and other states. In Colorado alone, station scientists 
received over $1.3 million to support studies designed to:

  <bullet> provide effective alternatives for managing fuels in fire-
        prone and fire-dependent ecosystems in Colorado and the Black 
        Hills;
  <bullet> provide ways for the Forest Service and the public to better 
        understand and build consensus on fire management strategies;
  <bullet> use satellite imagery to determine how insects, diseases and 
        other disturbances may create fire hazards and influence the 
        incidence and spread of wildfire;
  <bullet> use high-resolution satellite imagery to provide models for 
        forecasting fire weather and the impacts of smoke from fires.
  <bullet> determine patterns of regeneration of white pine trees after 
        fire and the effect these patterns may have on the spread of 
        white pine blister rust disease.

    These studies are coordinated with scientists at Colorado State 
University, the University of Colorado, Colorado School of Mines, and 
state and federal land management agencies.
    In addition, station scientists are conducting long-term monitoring 
of the Jasper Fire recovery in the Black Hills and assessing 
alternatives for managing the South Platte River watershed here in 
Colorado.
                                summary
    As stated earlier, the outlook is for a potentially severe fire 
season this year. The Forest Service in partnership with the other 
federal land-managing agencies and with our partners at the State and 
local level are doing all that we can to be prepared for this fire 
season. We will continue to do everything we can to ensure the safety 
of firefighters, communities, and resources. We will continue to 
cooperate and communicate among Federal agencies, States, local 
governments, Tribes and interested groups and citizens to ensure the 
long-term safety and health of communities and resources in our care.
    This concludes my statement, Mr. Chairman. I would be happy to 
answer any questions you and the members of the committee may have.

    Senator Campbell. Thank you. You mentioned some of the 
effects, as I did in my opening statement, but the thing I 
didn't mention, you didn't either, and that is the long-term 
healing that has to take place. I lived down by Durango this 
year, and I know Rick, and sometimes I drive up to Silverton. 
There's a sign by the road up there near an old fire area 
that's called Line Creek Burn, maybe you know that, I think it 
was 120 years ago, and you can still see the effects of the 
fire.
    A lot of the young trees have grown back and brush and so 
on, but there's still, you know, charred remains of old stumps 
there, 120 years later. So when these things happen, you know, 
the immediate tragedy is obvious for literally everybody to 
see. The long-term tragedy is you won't see them in your 
lifetime like they were, that's for sure.
    As you know, I had a couple opportunities when I was a 
youngster, we've talked about this, to be on the fire lines, 
and it gives you a whole different perspective of what you face 
when you're out there. I was just a boy, and that was the day 
before we had so many politically correct things done and 
before, you know, everybody was so much into civil rights, they 
used to come right into the communities with the trucks, in the 
theaters, where I remember, and load you up. You had a choice: 
You can go fight the fire or you had to go to jail, that was 
it, if you were big enough to pick up a shovel or an axe. I 
don't remember anybody ever refusing.
    I mean, when we were young, I only went two or three times, 
but I was ready to go, and everybody else was, too, because we 
all knew of the threat. And I think one of the things that's 
happened now is that we tend to look to somebody else to fix it 
for us. It's somehow not my fault, and I'm not responsible for 
getting out there myself unless it's my house, but I'm not 
responsible for that next town or that next guy's house or 
something else, that's supposed to be done by some agency, so 
why aren't you county guys or State guys or so on taking care 
of this?
    I mean, it's almost a form of displacing our anger when we 
used to sort of accept the responsibility. We all had to get 
out there. So I think attitudes are changing, too, about it. 
That's just, I just throw that out for no reason at all, but 
you were probably aware of it. Okay. Let's go to--just to get 
it off my chest. Jim? Let's go with Jim Hubbard, State 
Forester.

                STATEMENT OF JAMES E. HUBBARD, 
                    COLORADO STATE FORESTER

    Mr. Hubbard. Thank you, Senator Campbell. I appreciate you 
being here and holding this hearing and bringing your staff 
with you so that they can learn something about this, too. I 
know they already know. I probably could just defer to your 
opening statement for my testimony. I agree with what you said. 
Maybe I can elaborate a little bit.
    Colorado is not unlike a lot of the interior West. We've 
got a forest condition that's ready to burn. Most of our forest 
was created by disturbance, and it's about to be recreated by 
disturbance, and originally, that was mostly fire. And that 
forest is 120, 150 years old, and it's at the end of that life-
cycle. It has no fuel moisture in those live trees, and so when 
we get fire, it's more difficult to control. It burns quicker. 
It burns hotter. It burns angrier. It's a difficult situation, 
and so initial attack becomes critical.
    Add to that the drought that you've talked about. Colorado 
snowpack this year is 27 percent of normal. That's going to 
cause all kinds of water problems. But for us, it causes fire 
problems. It increases the likelihood of ignition. We're dry up 
to 9,000 feet. That's a lot of exposure for this time of year, 
and we've already had a number of fires, as you pointed out, 
four times the normal number for this time of year. And it's 
moving into the interface.
    For the rest of the season, we're totally dependent upon 
frequency precipitation. The forest is dry, and everything else 
is dry. If we don't get rains on a regular basis to keep that 
ignition down, we'll have a lot of fire, and it will be large 
fire.
    You add to that the people that have decided to make their 
homes in the forests and growth rates in Colorado. We now have 
nearly a million people living in those six million acres of 
high-risk interface that we talked about. All 474,000 homes----
    Senator Campbell. One million, roughly one-fourth of the--
or no, we have 4 million people or thereabouts, so that's about 
a fourth of the State lives in high-risk areas, you're saying?
    Mr. Hubbard. Yes. And that's continuing to grow. Douglas 
County is the best example. They're growing very fast and 
spreading into the interface everywhere. That creates hazards. 
We've already talked about Buffalo Creek which was not exactly 
a wake-up call. We knew the situation. But Buffalo Creek scared 
us. Buffalo Creek burned 2 miles wide by 10 miles long in one 
afternoon.
    And Jefferson County replotted the footprint of the Buffalo 
Creek fire, a watershed to the north, similar conditions, 
similar terrain, similar forest, and 840 homes would have been 
in the way. And that scares us. So we've got to do something 
about this situation in places, no question about it.
    The most recent fires, the early-season fires that we've 
had west of Denver, 3,500 people were evacuated from two fires. 
The Black Mountain fire alone, 1,700 homes were evacuated for a 
200-acre fire. It's getting that difficult to deal with. I'll 
let some of these local folks tell you more specifically what 
they have to do.
    The after effects we can talk a lot about, but a lot of 
Colorado has what we know as hydrophobic soils, so we get fires 
that are that hot, it seals the surface. And a normal rainfall 
event produces unusual run-off. A 2-inch rainfall event 
following Buffalo Creek caused all the damage, and that single 
event put more sediment in Stauntia Springs reservoir than the 
previous 12 years of its operation. So all kinds of other 
problems go with not dealing with the restoration of these 
watersheds.
    The National Fire Plan came along. We welcome it. We thank 
you for it and continued support. I think the basic premise 
that said we need to look at preparedness, fuel treatment, 
watershed restoration, and community assistance is sound. And 
it can work. Most of our emphasis the first 2 years has been 
placed on fire-fighting and preparedness, and some on 
prevention, a lot on mitigation and getting acres treated, fuel 
treatments accomplished that address this risk. Less emphasis 
has been placed on dealing with fire-prone ecosystems, 
watershed restoration, and community assistance.
    I would suggest that as we move forward, and it's only been 
2 years, but as we move forward, we might want to concentrate 
more on the restoration and the community assistance, because I 
believe long-term, that's where the sustainable answer's going 
to come from.
    We do have a collaborative process in Colorado, as Rick has 
mentioned. It's based on dealing with the priorities identified 
by that red zone hazard map. We have an implementation group of 
all the agencies and the land management agencies and local 
government representation, so we are making progress at how to 
do this together.
    There's been a press to produce acres, so concentration has 
been on getting that work done, and a lot of effort has been 
put into that as opposed to, let's all get together and figure 
out what we're going to do first. So we pressed ahead, and NEPA 
was a factor. If we wanted to get acres treated immediately, we 
had to use NEPA projects on Federal land. So those weren't 
always our highest priority projects, but we wanted to show 
that we could deliver for the National Fire Plan.
    We immediately, though, did begin a joint planning process 
so that we could get 18, 24 months of NEPA clearance that's 
required to match the projects up on the Federal land and in 
the watershed with the private State land projects in the 
interface. That's happening. It's happening at different paces 
in other places in the west, but it is beginning to happen in 
Colorado. And it takes all those ownerships, the private, the 
State, and the Federal, to work.
    We do need leadership, and as you pointed out, the 
Secretaries of Interior and Agriculture and the Western 
Governors got together. Their charge to us was to deal with all 
lands, to work together, and to view this as a long-term 
proposition.
    Since then, the wildland Fire Leadership Council has been 
formed, and that's the Federal agency representatives from 
Interior and Agriculture, and I would suggest that the 
Governors, the State foresters, the counties and the tribes 
need to be added to that council. I believe that's being 
considered. But that perspective, if we're going to do all 
lands, is necessary.
    Cross-boundary is essential. Interface, of course, from a 
State perspective, is our priority because we have so much at 
risk, life and property at risk. But just to treat the 
interface won't be enough. In some cases, we're going to have 
to look at a larger scale and look at that watershed. Buffalo 
Creek coming roaring at you out of a watershed is not, no 
matter what you've done in your subdivision, it's probably not 
going to be enough. So there has to be some treatment on the 
landscape in places.
    We have some tools in Colorado. We have one unique tool in 
Colorado that we've referred to as a ``good neighbor 
treatment.'' It was authority granted on a 4-year basis by 
Congress for the State to act as signature on Federal land. So 
we can cross the boundary widened amendment. The Federal 
agencies can cross the boundary from Federal to private. With 
good neighbor authority, the State can cross the boundary onto 
the Federal land. That helps facilitate this all-ownership 
approach.
    And so we have put the skills to use where we have the 
skills. And if it's from the Federal Land Management Agency 
doing the work on private land, we do that. If it's the other 
way, we do that, too. We have a number of stewardship 
contracting pilots in Colorado, and I think we've learned how 
to make that work, if that becomes more than a pilot approach. 
And we have the South Platte Large Scale Watershed Restoration 
project.
    We've learned a lot. We've put a lot of concentration in 
the South Platte, partly because of Buffalo Creek and what we 
saw there, but partly because it makes a lot of sense if our 
high priorities are to protect life and property and to work 
across that landscape together.
    We understand that Congress is concerned about 
accountability, and should be. It provided a lot of additional 
resources for us to work with. I'm hopeful that the follow-up 
to the collaborative strategy that the Governors and 
secretaries agreed to, the implementation plan that goes with 
that, will be signed next week, May 23, in Boise, and that will 
set out some performance measures that even OMB might agree to, 
and we'll begin to move ahead, then, with the accountability 
and to focus on the right actions that need to be taken to 
reduce this risk to life and property and to restore the 
watersheds.
    We're going to continue, though, to have the reminders with 
large fire. And hopefully, we're better prepared to fight fire. 
Early season in Colorado, to have this kind of fire activity, 
is unusual. Early season usually catches us not quite prepared, 
and yet, out of all of what we've been through, out of 3,500 
people evacuated, only two homes have been lost. I think that's 
remarkable, and I think that speaks to how we've learned to 
fight fire together.
    But because of that forest condition in much of the West, 
this is going to be a long-term proposition. We've got more 
acres out there than we can ever treat. We will not need to 
treat every acre. It is important to prioritize and decide 
which ones are most important for us to deal with.
    We've learned long ago in Colorado and elsewhere to fight 
fire together. Now, we're learning how to mitigate hazard 
together. It's a little different proposition. We've got a lot 
more land management issues that are out there that haven't 
been dealt with before, and now they've become all of our 
issues. We are all dealing with them together.
    And you have individual home owners. You don't have a lot 
of home owners in the room today. My guess is if we'd have 
distributed notices west of Denver a little more vigorously, 
and they knew you were in the audience, more would have been 
here, but their memory is short, and it takes this kind of--it 
takes a close fire to remind most home owners. And even then, 
everybody isn't convinced.
    Some go out immediately and mitigate the hazard around 
their homes. Most do. Some say, no, I'm not willing to cut 
those trees. I bought this property because of those trees, and 
I'm not going to. I can lose my home, and I don't expect any 
firefighter to take a risk defending my home. And then there's 
another category that expects the public to be served. It's 
taxpayer money. They want everything to be taken care of, and 
that's just not realistic. But we still deal with all of those 
views.
    Likewise, we have different opinions of what we ought to do 
in the watershed: How far out do you go? What kind of areas do 
you enter? What type of treatment do you apply? We're working 
through that in Colorado. The South Platte Large Scale 
Watershed Restoration project is helping us take the lead on 
how we're going to make that happen in Colorado. And a lot of 
folks are paying attention to that, as they should be. We want 
to make this process that we have enough buy-in and support 
from decision-makers and interested parties.
    It will eventually come down to communities and what the 
community wants to do and what the community capacity is to 
make it happen and their will to stay with this long-term. We 
can help. We can facilitate. We can prioritize. We can 
stimulate. We can add additional resources, but that community 
eventually is going to make the decision. So I would urge you, 
as we move forward, help us pay to that community assistance 
element of the National Fire Plan. It's not a large element in 
terms of the fire plan. I wouldn't advocate community 
assistance at the expense of preparedness or fuels treatment, 
but it does, I think, propose the hope for whether our success 
will be realized. Thank you.
    [The prepared statement of Mr. Hubbard follows:]
    Prepared Statement of James E. Hubbard, Colorado State Forester
    I appreciate the invitation to present testimony on National Fire 
Plan coordination and federal programs to enhance state and local 
cooperation.
             situation--the condition of colorado's forests
    Forest condition, or health, is defined by the interaction between 
three components: resilience to disturbance, biological diversity, and 
ability to meet people's needs.
    Several issues and influences contribute to the current condition 
of Colorado's forest resources. Those of primary concern are trends in 
forest cover change, insect and disease cycles, expansion of the 
wildland-urban interface, and watershed health.
    The lack of large-scale disturbance is the single-most important 
factor related to forest health. The majority of Colorado's forested 
landscapes are considered to be disturbance driven, which means they 
evolved with natural cycles of wildfire, insect and disease 
infestations, flooding, avalanches, and windstorms. Changes in human 
values and the resulting shift in land-management practices interrupted 
these disturbance cycles, primarily through fire exclusion and reduced 
harvesting activity on public lands.
    Without disturbances that periodically rejuvenate forest stands and 
ensure a variety of forest types, ages and densities, many of 
Colorado's forests have become unnaturally crowded and concentrated in 
older age classes. This lack of diversity, along with intense 
competition for resources such as water and light, has left many forest 
stands vulnerable to insect and disease attack, catastrophic wildfire, 
and other types of damage on a vast scale. Further complicating the 
situation is the public's resistance to cutting trees. All these 
factors combined create a formula for disaster.
    It took over a 100 years for forests to achieve this condition and 
it will take many years of careful management, interagency 
collaboration, and continued funding to improve forest conditions and 
reduce the risk of catastrophic fire in Colorado's wildland-urban 
interface.
                 growth in the wildland-urban interface
    The rapid growth in the wildland urban-interface poses the 
additional challenge of trying to manage natural resources while 
protecting lives and property. Currently, nearly 1 million Coloradoans 
reside in the interface, and the projected growth in Colorado is 
expected to far exceed the national average. Over the next five to 
twenty years, Colorado is expected to grow at a rate of two times the 
national average. In Teller and Park counties, the growth rate in the 
next two decades is predicted to be approximately 6 percent. Douglas 
County leads the rapid growth with 191 percent change in population 
between 1990 and 2000, 60,391 to 175,766. Many of these residents have 
built homes in the interface, valued at $181 million in just the first 
quarter of 2002.
           hazards and risks in the wildland-urban interface
    The risk of wildfire in Colorado's wildland-urban interface poses a 
daunting challenge to public, safety, fiscal responsibility, and 
natural resource integrity in the state. The 2000 fire season brought 
this challenge to the forefront of public attention when four interface 
fires along Colorado's Front Range destroyed 74 structures and 
threatened thousands more, interrupted utility service, and impacted 
water and air quality. The cost to state coffers for suppressing these 
fires was staggering, contributing to the most expensive wildfire 
season in Colorado's history.
    The large fires in Colorado this spring have cost $4,290,798 to 
suppress. The Black Mountain fire caused the evacuation of residents 
from 1,700 homes. All indications are that it will continue to be 
unusually dry, adding to an already volatile situation.
    The cost of suppressing unnaturally large and destructive fires in 
the complex wildland-urban interface environment often presses state 
and local resources beyond their capacity. To address these critical 
needs, the Colorado State Forest Service, in collaboration with 
federal, state, county, and local agencies, as well as private 
landowners, is taking steps to mitigate the risks of catastrophic 
wildfire, particularly where lives and property are at greatest risk. 
Much of what is being accomplished is a direct result of the funding 
provided through the National Fire Plan.
             national fire plan (nfp) projects in colorado
    To identify communities at risk, Colorado's Interface Red Zone map 
was used (attached).* The Red Zone is based on hazard (amount of fuel/
condition of the forest), risk (the potential for ignition), and value 
(number of homes). This assessment identified 1,609 communities with 
nearly 1 million residents and over 6 million acres as being at risk 
from catastrophic wildfire. Figures include private and federally owned 
acres. Colorado's mix of ownership necessitates interagency 
collaboration to address the problem.
---------------------------------------------------------------------------
    * Retained in committee files.
---------------------------------------------------------------------------
    NFP funding in federal fiscal year 2001 allowed the Colorado State 
Forest Service to implement 67 projects that ranged from statewide fuel 
treatment awareness to community based hazard fuels treatments; $1.5 
million was used for fuel hazard treatments, $167,000 for planning and 
assessment, and $366,460 for awareness. All federal dollars were 
leveraged, some by as much as 10 to 1. Following are a few examples of 
successful projects that have been implemented in Colorado.
    The Baca Grande Mitigation Project received a $25,000 grant to 
reduce hazard fuels. They developed a 5-acre demonstration area; 
treated 47 acres of defensible space on 52 properties, and conducted 
wildfire information workshops for 54 property owners.
    The Larimer County Slash Disposal Project received a $65,200 grant 
to reduce hazardous fuels. They completed 198 miles of access 
improvement and fuelbreak construction and created 21 acres of 
demonstration projects. The match for this grant was $294,022.
    Through a $16,561 grant, the Colorado State Forest Service 
reproduced and distributed 7,500 Burning Issues CDs, a high school fire 
ecology curriculum. Each science teacher in 317 Colorado high schools 
received a lab pack for use in their senior high science classes. In 
addition, workshops were offered to train teachers about the effects of 
fire on watersheds and communities.
    You will hear more about NFP assistance to local preparedness from 
the County and Fire Department witnesses.
                 federal, local and state coordination
    Colorado has chartered a NFP implementation group with 
representatives of the land management agencies and local government. 
Through regular meetings this body has coordinated identification of 
communities at risk, treatment projects, exchange of planning and 
monitoring information, assistance to communities, and a common 
approach to delivery of prevention messages.
    The land ownership pattern in Colorado and much of the west 
requires a cross boundary landscape scale approach. All jurisdictions 
must be included to achieve success. NFP emphasis has been focused on 
firefighting and fuel treatment. This is appropriate for Colorado's 
forest condition and interface risk.
    As the NFP moves forward more attention needs to be given to 
community assistance. The sustainability of Federal investment will be 
dependent on local connection and capacity. Through programs like State 
Fire Assistance, Volunteer Fire Assistance, Community Assistance, and 
Economic Action, local programs are enhanced. From small beginnings, 
capacity grows and sustainability results. The NFP can play an 
important role to help communities become an integral part of 
preparedness, mitigation, watershed restoration and prevention.
    On a national scale, creation of the Wildland Fire Leadership 
Council is a positive move. Additional representation from Governors, 
State Foresters, Counties and Tribes would provide useful perspective 
in addressing the coordination issues we face in implementing the 
National Fire Plan.
    Finally, through the efforts of the Western Governors, the 
Secretaries of the Interior and Agriculture have adopted a 
collaborative strategy to wildland fire management. This strategy 
should continue to remind us that reducing wildland fire risks to 
communities and the environment will mean action across all lands, 
long-term commitment and full involvement of all parties.
    Thank you for the opportunity to share my views with you today.

    Senator Campbell. Okay. I've got a whole bunch of 
questions. Let me just ask couple of them before we go on to 
the local concerns. When you say community assistance, what 
does that mean? I mean, it's after the fact; right? Money after 
the fact or resources after the fact?
    Mr. Hubbard. Not entirely. There are several elements of 
that in the budget. There's the State fire assistance which 
provides the State some help to work with the communities. 
There's volunteer fire assistance so that the fire departments 
get additional funds to be prepared to fight fire.
    Senator Campbell. But you're not thinking in terms of 
community assistance meaning, I don't know, something like 
repaying for a person's home that lost his home, something of 
that nature.
    Mr. Hubbard. No, no, not that at all. There is an economic 
assistance element of that, but that's aimed more at trying to 
find uses for the small-diameter material.
    Senator Campbell. Let me ask maybe you or Rick or both, do 
some of the things we have already in place in the Federal law 
inhibit your ability to fight fires? For instance, you don't 
have to tell me if this was true or not, but I did hear that 
that fire that got away in Mesa Verde a few years ago that went 
so fast, I was told that the firefighters were not allowed to 
come in and fight the fire until they had an archeologist with 
them. Under some Federal law, they couldn't go in there and 
deal with it without an archeologist. And they couldn't find 
one. And it took them a day and a half or something to find 
one. And during that amount of time, that fire, it just went 
like pi squared. It just really expanded. It had a high wind. 
As you mentioned, the speed, they can travel with high wind. 
Did that actually happen? Was that true?
    Mr. Cables. I can't speak to that. I wasn't here. I'm not 
that familiar with that particular fire.
    Mr. Hubbard. In a place like Mesa Verde, I know that that's 
a concern. There are archeological sites that shouldn't be 
disturbed. It's not the Federal law, though, that gets in our 
way, it's how we're prepared to respond to it. And sometimes, 
we haven't anticipated all of those issues. And that may have 
caused a delayed response in Mesa Verde, but I know we 
investigated that thoroughly, and I don't believe that's the 
reason that the acres were lost. However, it did tell us, the 
next time, it might be, so we better be prepared to respond in 
the way that that won't inhibit suppression activity.
    Senator Campbell. Have we had any trouble with other 
existing laws? For instance, I remember the story about the man 
in California who had a home, and the fire was heading his way, 
and so he cleared the brush near his home to prevent the fire 
from getting his home, and it happened to be habitat for some 
kind of a rat that was listed on the endangered species, or it 
was a habitat, and he got fined a huge amount of money for 
that. Have we had any trouble like that, that you know of?
    Mr. Hubbard. Yes.
    Senator Campbell. Yes? Why don't you give me an example of 
how we've been inhibited by that.
    Mr. Hubbard. Not so sure, I would say, inhibited, but in 
some of our mitigation activities, and we had worry about this 
for private land owners, especially when the State's giving 
them advice to act, that there may be some endangered species 
issues. And we have run into that, and that has delayed 
projects. That has cancelled some projects because of 
endangered species. But it isn't that we can't still take 
action, we just have to take a different action or in a 
different way.
    And in Colorado, the Fish and Wildlife Service has been 
very active and working with us to make sure that we don't run 
into that problem where we're doing interface hazard reduction. 
Now, they're looking at their laws to see how far they can go, 
and we're operating under a one-year agreement with Fish and 
Wildlife to protect those land owners who take action in the 
interface. And they may discover that there are some statutory 
changes that would be necessary, but they've been very good at 
working with us to avoid that.
    Mr. Cables. And Senator Campbell, just to add to that, when 
there's an emergency, when the fire's coming over the mountain, 
we've got a lot of discretion to move quickly. The key is, I 
think, to have the preplanning and foresight. And you down in 
Mesa Verde, I would assume, because one of the fundamental 
values that that park protects is archeological sites, so the 
purpose that--I think the way to get at this, and this is why 
these fire management plans are so important, if you do the 
fire management plan on an area like that, clearly, and on the 
national forest down in southwestern Colorado, we have a lot of 
archeological sites, we need to anticipate those and plan for 
that and say, when the fire bell rings, if the fire's coming 
over the hill with certain conditions and we have to suppress 
it, we've just got to have some ability to get in there and 
move quickly to deal with the fire situation.
    So I think that applies there. It also could apply with 
endangered species, where we have them, and those kinds of 
things. So I think it's, again, as we get better at this, 
anticipating those kind of issues ahead of time, getting the 
agreements in place and the understanding, that's a solution to 
that, not when the fire's coming over the mountain. But we do--
I don't believe we have any authorities inhibiting us when we 
have that emergency.
    Senator Campbell. So you can take, say, mechanized 
equipment into a roadless area if there's an emergency fire?
    Mr. Cables. If there's an emergency fire that we believe is 
threatening life and property, we can make that decision.
    Senator Campbell. That also made me think, too, when you 
spoke about the evacuation, a number of people had to evacuate, 
a lot of these homes on this area, the red areas, are in areas 
that are just kind of private driveways or very--two-lane or 
something of that nature. If you have to evacuate, the 
congestion alone on the routes that you need to go in to fight 
the fire, doesn't that complicate your ability to get equipment 
in that you need to fight the fire?
    Mr. Cables. I think, without question, it does. And I 
believe these two gentlemen that represent the local view 
probably could talk to that real specifically.
    Senator Campbell. Okay. I'll get them. Let me maybe ask 
another one before I move on, too. You spoke of the high speed 
the fire moved and the winds, Rick. If a wind, if you have a 
hot fire and the wind is traveling a hundred miles an hour, can 
you then assume that the flames will probably be jumping and 
moving at the same speed, a hundred miles an hour?
    Mr. Cables. Well, the flames can move at the speed of the 
wind, yes. And again, there are certain situations, you 
reference that you were up on the Black Hills a couple years 
ago when we had the Jasper fire, there are certain times with 
certain weather conditions where we're not going to stop the 
fire. And even in areas where we've thinned, we're not going to 
stop the fire.
    But the thinning of the vegetation and putting the forest 
in a condition where it's not as prone to these catastrophic 
fires for, you know, a big percent of the fire behavior we deal 
with, we could catch the fire if we had the forest treated, but 
there are certain instances, and I think Buffalo Creek may be 
one of those times, where we would have had a hard time 
catching that fire.
    Senator Campbell. There was nothing that could stop it, 
yeah.
    Mr. Cables. But even on Buffalo Creek, we had a flank of 
that fire where we had thinned, and we had a flank of that fire 
where we had done a prescribed fire just the year before, the 
fire laid down and got on the ground in those areas. The fire 
still carried, but it wasn't in the crowns of the trees.
    So no question, there are things we can do to put these 
forests in a kind of condition where we can improve the safety 
of our firefighters and also keep the land from being 
completely denuded when the fire's finished.
    Senator Campbell. Thank you. Now we'll hear from Mike 
Tombolato, please.

    STATEMENT OF MICHAEL TOMBOLATO, CHIEF, CHERRYVALE FIRE 
                PROTECTION DISTRICT, BOULDER, CO

    Mr. Tombolato. Thank you for the opportunity to be here 
today to discuss the National Fire Plan as it pertains to the 
existing Colorado State Fire Assistance Program, and to the 
Wildland/Urban Interface Cooperative Fire Protection Program. 
The intent of these programs is to provide cooperative grants, 
competitive grants to local entities to implement community 
fire risk reduction activities. The components include 
reduction of long-term wildfire costs through prevention, 
hazardous fuels reduction and fire planning for the Wildland/
Urban Interface.
    And I'd like to kind of speak to it from a local entity's 
perspective, and how we've dealt with it. Cherryvale Fire 
initiated funding for a wildland mitigation crew in 1997 and 
has been a grant recipient from the Colorado State Fire 
Assistance Program for 4 years. Cherryvale Fire Protection 
District is one of three known Colorado departments that funds 
a full-time wildland mitigation crew which implements year-
round hazard fuel reductions for the constituents of its 
districts. The State Fire Assistance Program enables Cherryvale 
to increase staffing levels to better meet the outstanding 
needs that we are currently receiving from home owners in our 
area.
    To date, Cherryvale has performed an average of 35 
defensible space projects per year, and also treats more 100 
acres of wildland urban interface lands with prescribed fire 
annually. These same crews that provide those services also do 
home hazard awareness and education with the home owners, too.
    The quantity of acres treated and homes treated per year 
seem fairly low compared to a Federal level, but when we're 
treating acres with prescribed fire in the backyards, actual 
backyards of the homes, it takes a little bit more 
coordination, so you can't move quite as fast. They're a little 
more complex in that way, so we're literally going in, after we 
mechanically thin those communities, or the homes, and actually 
doing under-story burns right next to the home, and in some 
cases, right up next to them.
    Anyway, Cherryvale's wildland mitigation crew also compiles 
and maintains the district's Wildfire Hazard Identification and 
Mitigation Systems database. The WHIMS program is a GIS ARC 
INFO based program that analyzes data including building 
materials, topographic influences, fuel loading, access, 
utilities, and water supplies in order to assess each 
structure's ability to resist ignition from a wildland fire. 
This information is then given to the home owners so that they 
can identify things that they can do to help reduce their 
hazard to their home from a wildland fire.
    This database was relied upon during the Eldorado fire of 
September 2000, in order to brief arriving fire resources and 
the Federal overhead team members regarding each individual 
structure's hazard assessment in the community. So we're 
preplanning ahead of the fire instead of once the fire occurs. 
We know which one's going to hit the red rock and the green 
rock right off the bat. And the home owners actually know it, 
too. They've been informed of this information long before the 
fire occurs. It gives them an opportunity to make a choice, if 
they want to move forward with mitigation and help reduce their 
hazards or if they're willing to accept the hazards that their 
home is in currently.
    The mitigation crew also provides first line of initial 
attack services to the community. So instead of having the 10- 
to 20-minute normal responses that you would have in the 
communities in the mountains, we have crews that are there 
during the main part of the burn periods to be able to 
initially attack those fires quickly and effectively.
    In recent years, Cherryvale Fire, along with the city of 
Boulder and Boulder Mountain Fire Authority, all three of these 
entities have and do receive State fire assistance funding, 
have combined their paid mitigation crews in order to 
accomplish larger mitigation projects. And that has been an 
important role for all three crews. Sometimes, these projects 
get so large that we're trying to accomplish that it takes too 
long to try to get them done, so we've been combining our 
efforts to try to get these things done in each one of our 
districts.
    Cherryvale has been able to develop and support its 
wildland/urban interface fire mitigation efforts with the 
funding and support of the Colorado State Fire Assistance 
Program. Cherryvale has sought to develop and facilitate local 
coordination and reciprocity, as well, in these areas. Although 
tremendous innovations and partnerships definitely have 
developed as a result, continued Federal support is essential 
for the continuation of these efforts on both the State and 
Federal and local levels. Thank you.
    Senator Campbell. Did I understand you to say that you had 
a response time?
    Mr. Tombolato. There are those types of response times that 
do occur in the mountains, it's just because of the permanent 
location of the fire resources to where the fires are located.
    Senator Campbell. Yeah, scattered homes all over the place, 
it's not like a city block where you just drive down one street 
and you have the proximity to a bunch of houses. Number one, I 
would think that the resources, if you got a hundred houses 
scattered all over the countryside, you can't send a truck to 
every house, which means, it would seem to me, that you have a 
lot slower response time. So a 20-minute response time, is that 
considered fast?
    Mr. Tombolato. Well, our response time is considerably 
shorter than that, but that would be our, that would probably 
be an average response time in some of the mountain 
communities, I would assume. I know at least in Boulder County, 
that would be a respected response time if it was 20 minutes.
    Of course, locations and identifying where these things 
are, from our perspective, we identified our suppression 
actions to be quick and effective. We try to get there as 
quickly as we can while the fires are small where we can catch 
them. Of course, once they get large, suppression efforts 
become pretty ineffective. But the real key there is trying to 
reduce the amount of fuels in those areas to be able to manage 
those fires in a lower intensity situation so we can actually 
suppress them so we can actually get up there and deal with 
them.
    Senator Campbell. Years ago, in my dad's older years, he 
had a cabin on our property in California that he set on fire 
by accident, and I still remember the response time. It was 
about 20 minutes, pretty fast, I thought, but the darn thing 
burned down in 15, so it didn't help much. I mean, when they 
got there, it was gone, you know. He did it himself, and to my 
chagrin, he forgot to renew the insurance policy, too, by the 
way.
    Mr. Tombolato. Sorry to hear that.
    Senator Campbell. Scott.

STATEMENT OF SCOTT WELLS, DIRECTOR, CRITICAL INCIDENT RESPONSE, 
         JEFFERSON COUNTY SHERIFF'S OFFICE, GOLDEN, CO

    Mr. Wells. Thank you for having me here this morning to 
speak, Senator. I work for the Jefferson County sheriff's 
office, and that's significant in that in Colorado, the county 
sheriff is the fire warden for forest and prairie fire. That 
responsibility would probably mean different things to 
different sheriffs throughout the State, but in Jefferson 
County, we take the role both seriously and aggressively in our 
approach to the wildfire response.
    As you can see up here on the map here, this Jefferson 
County area, a good portion of it is comprised of Pike National 
Forest lands down at the south end of the county. As you look 
over here on the other map here, if I can hit it here, in the 
red zone map, a good portion of Jefferson County falls within 
what's known as the red zone.
    Senator Campbell. High density?
    Mr. Wells. And we estimate that approximately 60 percent of 
Jefferson County land mass is within mountain areas, and that 
would be out of a land mass of about 187 square miles.
    Jefferson County is home to about 530,000 residents. We 
have 25 fire departments and fire protection districts within 
Jefferson County, and we have approximately 1,400 firefighters 
within Jefferson County proper.
    My testimony that I believe your staff has focuses on the 
impact to local governments for wildfire in the wildfire urban 
interface. And the impact of local governments can be 
significant, and, of course, that is driven by the size and 
complexity of the fire itself.
    But the impact will run the range from the continuity of 
services when the wildfire breaks out, and by that I mean that 
as public safety officials are beginning their response to the 
wildfire, they still have an obligation to continue relevant 
services and relevant public safety services within their 
jurisdictions. So just because the fire is going does not mean 
that other calls for service are not going to continue to come 
into the local dispatch centers.
    There are many things which drive the severity of the 
impact to the local governments, among them are the conditions 
of the fuels and the topography of the area that is burning, 
its relationship to home owners and businesses and so forth. 
You have your weather conditions, that will drive the severity 
of the impact and so forth.
    One thing also that would drive that severity is the 
accessibility of fire-fighting officials to get to residences 
to perform structure protection activities and so forth. 
Coordination of public safety officials would have an effect on 
the impact and so forth. And then, preincident mitigation by 
the various property owners also has an effect on how the local 
governments are impacted in their response to these wildfires.
    I don't think that my colleagues here would argue that in 
Colorado, at least in Jefferson County, we consider a wildfire 
to be a year-round problem. It's something that we are aware of 
and are continually dealing with on a year-round basis now.
    I was in my current position when the Hi Meadow fire broke 
out in June 2000. That was a rather devastating fire in terms 
of acreage burned and homes that were lost. Fires such as that, 
of course, are always a threat to human life, and the effects 
can be devastating, and as everyone has said here this morning, 
far-reaching in their impacts.
    Just recently within the last month, there have been two 
fires that have been very close to Jefferson County, the 
Snaking fire, which was north and east of the town of Bailey, 
burned approximately 2,300 acres, and many people had to be 
evacuated, as well as the town of Bailey itself.
    The recent Black Mountain fire, although it was only about 
200 acres, had an impact of evacuation on approximately 1,700 
people or 1,700 residences. When that occurs, those 
evacuations, there's many impacts to other local governments, 
school districts and so forth, to provide sheltering and those 
sorts of activities. There's impacts to other arms of local 
governments in terms of information technology for mapping and 
so forth, public information, public works and those various 
arms of local government.
    Of course, the mission of public safety, fire, law 
enforcement, and emergency medical services is to provide for 
the safety of life, and our secondary mission is to provide for 
the protection of property, as you're well aware.
    I guess I would close up by saying that there is an 
existing partnership between State, local, and Federal 
authorities as it relates to wildfire suppression in Jefferson 
County and, I believe, beyond that. And good things have come 
to Jefferson County from the National Fire Plan. The funds have 
been appropriated and provided for training as well as the 
purchase of equipment, and it's through programs such as the 
National Fire Plan that we have helped there at the local level 
in sustaining our efforts to provide the wildfire suppression 
effort that we all do. And that would conclude my presentation.
    [The prepared statement of Mr. Wells follows:]
    Prepared Statement of Scott Wells, Director, Critical Incident 
        Response, Jefferson County Sheriff's Office, Golden, CO
    Critical incidents can have a profound impact on local governments 
whether they are man made or naturally occurring. Colorado has been 
home to several large and devastating wildfires in recent years. Among 
these catastrophic wildfires were:

  <bullet> The South Canyon Fire in 1994. 14 firefighters lost their 
        lives in this fire.
  <bullet> The Buffalo Creek Fire in 1996. This fire burned more than 
        10,000 acres and destroyed several residences.
  <bullet> The Hi Meadow Fire in 2000. This fire burned nearly 11,000 
        acres, and destroyed in excess of 50 homes and businesses.
  <bullet> The Bobcat Fire in 2000. This fire burned in excess of 
        10,000 acres, and 22 structures were lost, including 
        residences.
  <bullet> The Bircher Fire in 2000. This fire destroyed a large 
        portion (about half) of the Mesa Verde National Park.
  <bullet> The Walker Ranch Fire in 2000. This fire burned over 1,000 
        acres, and threatened many homes.
  <bullet> The Snaking Fire this spring. This fire burned more than 
        2,300 acres, and threatened many residences.
  <bullet> The Black Mountain Fire this spring. The fire was only 200 
        acres in size, but there was a tremendous threat to lives and 
        property. In excess of 1,000 homes were evacuated during this 
        fire.

    Wildfires that can be suppressed during the initial attack phase 
will have less of an impact than those fires that move into the 
extended attack phase. Therefore, this paper will address those 
wildfires that are large (greater than 100 acres) and are not 
suppressed during initial attack.
    Wildfire(s) occurring in the wildland urban interface (WUI) impact 
local governments in a variety of ways. Many functions of local 
government are effected. Some of these functions are: Closure of public 
schools in order that they can be used as shelters, the rescue and 
sheltering of a variety of animals, call back and re-direction of 
public safety personnel resources, and the involvement of other arms of 
local government. Among the many factors that determine the severity of 
the impact on local governments are:

  <bullet> The time lag between the start of the fire and the first 
        report to fire authorities. Often, fires begin in remote areas 
        and can smolder for days before being noticed.
  <bullet> The response time, and the response capability of the fire 
        authorities having jurisdiction.
  <bullet> Existing weather conditions, such as wind, temperature, and 
        relative humidity.
  <bullet> The topography and existing fuels in the fire area.
  <bullet> Accessibility of emergency equipment to the fire.
  <bullet> The location of the fire in relation to developed 
        communities and recreational sites.
  <bullet> Availability of, and safe conditions for the operation of, 
        air attack resources.
  <bullet> Effective incident coordination of public safety resources 
        (Fire, law enforcement, and EMS).
  <bullet> Effective incident management, to include all of the public 
        safety disciplines.
  <bullet> Effective recovery operations, and the return to normalcy, 
        to include clean up.
  <bullet> Pre-incident mitigation by property owners.

    Wildfire is a year round problem in Colorado. The large and complex 
wildfire poses the highest day to day potential for impact to local 
governments. One such impact is almost immediate. As public safety 
personnel begin to respond to such wildfires, their ability to continue 
service levels in their respective jurisdictions can be impaired. 
Continuity of public safety services is essential to the effective 
overall management of any critical incident. The basic mission of the 
public safety community is to provide for the protection of life and 
property. With that mission in mind, considerable effort is expended in 
alerting people and helping them get to safety. Efficient and effective 
evacuation of people in danger is paramount. This is occurring as fire 
fighting authorities are attacking the fire.
    Some of the other issues which local governments must address 
during large fires in the WUI are:

  <bullet> Emergency medical care for those in need.
  <bullet> Food and housing for those evacuated.
  <bullet> Providing traffic control and security for evacuated areas.
  <bullet> Critical support from the non-public safety functions of 
        local government, such as public works, information technology, 
        and public information.
  <bullet> Proper staffing and functioning of the Emergency Operations 
        Center (EOC).
  <bullet> Sustaining the overall response for up to 72 hours, or the 
        duration of the event, in the worst case scenario. (The worst 
        case scenario is that a Type I or Type II Incident Management 
        Team is unavailable, or that the fire does not meet their 
        deployment criteria).

    Properly trained and equipped public safety personnel are 
imperative to safe and efficient fire suppression. Large wildfires in 
the WUI are time, personnel, and equipment intensive. The right 
equipment, and the right numbers of equipment, is necessary. However, 
equipment is of no value if there are not sufficient numbers of 
properly trained personnel to operate the equipment. Personal 
protective equipment (PPE) is a must for all wildland firefighters and 
law enforcement support personnel. Communications equipment (radios and 
telephones) is always a necessity in any critical incident. This is 
especially true in wildfires because of the difficult terrain. 
Satellite phones can provide a vital communications link between the 
incident and support agencies. As the number of people living in the 
WUI, particularly the ``Red Zone,'' continues to increase, these needs 
become more pronounced.
    Enough cannot be said about effective local incident management. 
Command and control are essential to assure a safe, efficient, and 
coordinated response to these incidents. The training and operations of 
a local incident management team is time consuming. The impact to the 
fire departments, law enforcement agencies, and the many other 
participants, is substantial. At the local level, the best incident 
management is achieved through interagency participation (local, state, 
and federal).
    The financial drain on local governments during these critical 
incidents can be enormous. On large fires some of the personnel and 
equipment costs are reimbursed to the various entities by the state and 
federal government. However, other costs are not reimbursed, and must 
be borne by the provider. Some of the costs that are not reimbursed 
are: Regular time personnel costs, first operational period mutual aid 
costs, and mileage costs for patrol and other local government 
vehicles. Sometimes, these costs can be significant.
    The National Fire Plan has provided assistance to local governments 
in the form of equipment and training grants. Equipment that has been 
received to date has been invaluable in improving the response 
capability of local governments. Assistance has also been received in 
the form of WUI grants to help fund the Colorado Mitigation and 
Wildfire Conference. Assistance such as this is appreciated, and needs 
to be continued to sustain the interagency wildfire suppression effort.
    To summarize, the impact to local governments of wildfires in the 
WUI is wide-ranging and often significant. The impact deepens as the 
fire behavior becomes more complex, requiring the whole of the public 
safety response capability as the head of the fire nears homes and 
other inhabited areas. Given the population growth in the WUI, there is 
an ever-present need for personnel, equipment, and training. Continued 
cooperation among local, state, and federal public safety authorities, 
as well as at risk property owners, will serve to ease the burden.

    Senator Campbell. Did I understand you to say there were 
1,600 firefighters in Jefferson County?
    Mr. Wells. About 1,400, sir.
    Senator Campbell. Fourteen.
    Mr. Wells. Yes, sir.
    Senator Campbell. What number of those are volunteer?
    Mr. Wells. A significant number. I could get that number 
for you if you would like it, but I don't have it right now.
    Senator Campbell. And also do we have anything in place? 
You mentioned the purchase of equipment. Do we have anything in 
place that we transfer Federal equipment, has to do with police 
departments? You know, we have under CTAK, we can transfer 
different apparatus for local police departments.
    Mr. Wells. From time to time, there's surplus transfers 
that take place. I was trying to accomplish one last year, but 
it didn't materialize, but from time to time, yes, sir, there 
are.
    Senator Campbell. Thank you.
    Mr. Cables. And just to build on that, we have a program 
that we work with the State on Federal excess property, so 
we'll get, like, excess Department of Defense property, large 
trucks, and they will be retrofitted to carry water and that 
sort of thing.
    Senator Campbell. States and tribes both can get those 
through, is it done through GSA, is it, or is it done right 
through the Forest Service?
    Mr. Cables. We can do it through GSA, but really, we work 
with the State and funnel that money through them, and they 
provide grants to, like, VFDs and local fire protection 
districts to retrofit that property, that equipment.
    Senator Campbell. Well, let me start, since you have the 
mike there, Rick, let me ask you a couple questions first. Give 
the committee an idea about the forest health in Colorado or 
the age class distribution of the trees.
    Mr. Cables. Well, I think, as Jim said, Colorado forests 
are ready to regenerate, and by that----
    Senator Campbell. What does that mean in laymen's terms? 
That means they're almost ready to die?
    Mr. Cables. That means that they are ready to either have 
insect or disease kill the forest, the larger trees, the older 
trees, and a new forest start, or fire are the two major 
disturbance agents. We also have avalanches, wind and flood 
events. But really, insect and disease and fire are the two 
largest.
    The average age of forests in Colorado are over a hundred 
years. And for some of the species, for example, like Aspen, 
Aspen is not a long-lived species.
    Senator Campbell. Eighty something, right?
    Mr. Cables. Yeah, it's--80 years it starts getting old, and 
you get rot and that sort of thing. So about 88 percent of the 
national forests in Colorado are a hundred years or older, and 
only about 2 to 3 percent of the forests in Colorado are 30 
years or younger. So we've got an old forest----
    Senator Campbell. And so would those mostly be considered 
category 2 and 3, high-risk fire lands or areas where those 
forests are?
    Mr. Cables. Not necessarily, but we have--let me see. I 
think I actually have that information. In Colorado, condition 
class 3, which is the highest condition class for catastrophic 
fire, statewide, we've got over 7 million acres, 7.3 million 
acres, that's all lands. The Forest Service part of that is 3.2 
million acres in category 3.
    And I would just mention and maybe submit this for the 
record, if Jim doesn't, the State of Colorado put together this 
2001 report on condition of Colorado forests, it's an excellent 
document, and it kind of lays out the situation in Colorado 
with respect to the forests.
    Senator Campbell. Why don't you turn that in. We'll have 
that included in the record for the committee.
    Mr. Cables. Okay.
    Senator Campbell. Of those areas that are category 2 or 
even more so, category 3, how much of those are in wilderness 
or roadless areas or other reserves, which would make it very 
difficult to thin or harvest or to reduce the fire levels?
    Mr. Cables. The information that we have is, of the Forest 
Service category 3 acres, 3.2 million, about a third of those 
acres are wilderness or roadless, and that's .9 million acres, 
900,000 acres. Of category 2 lands, we've got 4.3 million acres 
in category 2 on the U.S. Forest Service lands, and about 
470,000 acres are wilderness or roadless. And I would say the 
bulk of those are wilderness.
    Senator Campbell. The bulk?
    Mr. Cables. Yeah.
    Senator Campbell. Maybe go to Jim now, Jim Hubbard. Is the 
National Fire Plan making a significant difference in Colorado? 
Has there been any noticeable real improvement between State, 
Federal, and local authorities?
    Mr. Hubbard. We already had a good arrangement working in 
Colorado, but yes, it's made a noticeable improvement. This 
implementation group for the National Fire Plan that's been 
formed meets on a regular basis, usually once a month, and it 
brings all the agencies together, and that's not something 
we've done before. We haven't looked at coordinating our land 
management practices together. That's a big difference.
    We would not have gotten through the recent fires and only 
lost two homes and not had more damage if it hadn't have been 
for the National Fire Plan and the additional suppression 
resources that were immediately available. Yes, we used 
severity to preposition those resources, but we had the air 
supports, and we had the crews, and we had the engines that we 
would not have had had we not had the National Fire Plan.
    Senator Campbell. Well, Mike Tombolato had mentioned some 
of the things that they have at county level that helps people 
prepare or prevent or, I'm not sure what the words he used, but 
do we have that also at State level?
    Mr. Hubbard. Yes. Thanks for asking that. I should have 
commented. One of the things that the National Fire Plan has 
stimulated is the coordination, especially with the Bureau of 
Land Management, the Forest Service and the State Forest 
Service, on coordinating our prevention message, not only 
delivering a consistent message, but to use all of our 
resources, all of our field operations to do that. And that's 
made a big difference.
    Senator Campbell. If there's some property that is on State 
land and it joins property, private land, and the fire starts 
on State land and goes to private land, spreads to private 
land, does a great deal of damage, what is the State's 
liability?
    Mr. Hubbard. Well, Scott would like to tell that you we 
ought to pay for that suppression cost.
    Senator Campbell. I'm sure the home owners would, too.
    Mr. Hubbard. Yeah, right. The way that Colorado law is set 
up, that is a county responsibility. The suppression of 
wildland fire belongs to the county. The State assists when 
it's beyond the county's capability. And the counties pretty 
much take care of 90 percent of initial attack, and that's 
using those local departments and those volunteers. So it's a 
critical element of fire suppression in Colorado.
    But in terms of financial liability, it does belong to the 
county, but every governor I've worked for where that is beyond 
county capability has assisted.
    Senator Campbell. What about if a fire goes the other way, 
it starts on a private land and goes to State land, and as one 
fire, I forgot which one it was, it might have been set 
accidentally by a couple of youngsters, what is the liability 
in that case? Are the families liable?
    Mr. Hubbard. Possibly. I can't interpret that part of the 
law. And typically, local jurisdictions make some public 
example for awareness purposes. I don't know if any money 
actually changes hands.
    Senator Campbell. So if there's a lot of destruction of, I 
guess, if it's private property and spreads to another private 
property and burns a guy's house down, it's a civil problem 
then, I suppose.
    Mr. Hubbard. Correct. Yes.
    Senator Campbell. Okay. I mentioned in my statement some of 
the smaller trees that seemed to be growing in numbers on all 
of our acreage that sometimes it's called the small stem trees. 
Is that causing much of a problem to State forest health? Or I 
might ask that of Rick and you, both.
    Mr. Hubbard. Oh, absolutely. That's our major problem. And 
it's not just----
    Senator Campbell. How do you deal with it?
    Mr. Hubbard. Well, as best we can. What happens is that 
drives up that cost per acre for treatment. So whereas you 
might use prescribed fire in some places for as little as $10 
an acre, you may spend as much as $1,000 an acre for the same 
treatment where you have the small-diameter material and 
interface that together.
    Senator Campbell. Are you using the word ``treatment'' and 
``prescribed burn'' sort of interchangeably?
    Mr. Hubbard. Yeah, except that where you have a 
concentration of heavy fuels, typically small-diameter 
material, you can't use prescribed fire without using 
mechanical treatment first.
    Mr. Cables. And it's a twofold problem, not only do you 
have the younger trees which can carry the fire and we call 
ladder fuels which carry fire and then it gets up into the 
crowns of the larger trees, but then, it's also difficult to 
find markets to, if we can do mechanical treatment or some sort 
of thinning, to find a viable market for that material----
    Senator Campbell. All the mills are closed down, yeah.
    Mr. Cables. And oftentimes, even the mills we had weren't 
able to deal with that small material, so that's why some of 
the initiatives around biomass, and some of the work we've done 
here, we've got a couple of pilots we've done here on the Front 
Range looking at biomass, ethanol production, and also up in 
Wyoming, at least in our region, Forest Service region, we're 
looking at some potential cogeneration for power, using this 
kind of fuel.
    Senator Campbell. There is a section of the new farm bill, 
you know, that deals with biomass under a grants program. You 
probably knew that. And speaking of salvage, Jim, when you have 
a fire on State land, is it the general practice of the State 
to try to commercially market the material, the dead trees?
    Mr. Hubbard. Yes.
    Senator Campbell. Same problem of finding a taker is not 
easy, I guess, particularly the small trees?
    Mr. Hubbard. Yes. Our base industry, forest products 
industry in Colorado has declined considerably. So now that we 
have resources to practice, implement practices on more acres, 
sometimes we're having trouble finding the contractors to do 
it. And we certainly are having all kinds of problems with the 
market to support it.
    Senator Campbell. I don't know if this is true, either, and 
maybe Rick can tell me, but I understood that when the Mount 
St. Helen's eruption took place, and it just killed, whatever 
it was, 100,000 acres of trees, it was a huge amount, that by 
the time the dead trees could be salvaged, there was so much 
Federal red tape to get through that, in fact, there was bug 
infestation and most of them were lost, they went to no use, 
anyway; is that true?
    Mr. Cables. I don't know. I know that----
    Senator Campbell. Well, then, let me ask Jim, are there any 
Federal impediments that slow down the process of marketing 
those dead trees that make it unlikely you could do it within a 
time to save them, or save the wood?
    Mr. Hubbard. Yes, I think the NEPA process, and if there's 
objection in that process, it slows it down.
    Mr. Cables. I can think of some examples where we've had 
dead standing timber or blow-down timber where we were really 
in a pinch, not Mount St. Helen's, but other cases, to get 
approval to go in and take that wood out before you had blue 
stain or some other insect and disease problems, so----
    Senator Campbell. What is the time? I guess it depends on 
the type of tree, oak or fir, pine or so on, but is there a 
ballpark figure that, once you leave trees down, if you don't 
do something with them, that bugs or something moves in, blue 
stain or so on?
    Mr. Cables. For example, on Ponderosa Pond, and this 
example is freshest in my mind, up in the Black Hills, after 
the Jasper fire, which you mentioned you are aware of, trying 
to get in there and do some salvage before blue stain sets in, 
it's got to be done within a matter of months.
    Senator Campbell. Within months?
    Mr. Cables. Yeah.
    Senator Campbell. Let me move to Scott, now. Given the 
fires at Springs, Scott, give maybe a local assessment of the 
cooperation between Federal, State, and the local departments, 
and don't worry about hurting anyone's feelings if it's not 
good enough.
    Mr. Wells. Not a problem. In Jefferson County, I consider 
the cooperation to be very good.
    Senator Campbell. You're better off with the National Fire 
Plan than without it?
    Mr. Wells. Well, the National Fire Plan, of course, 
augments our abilities and allows us to do more things, but the 
cooperation is wide-ranging. We have very many fire cooperators 
in Jefferson County to include U.S. Forest Service personnel, 
Bureau of Land Management personnel, Colorado State Forest 
personnel, and then, very many local fire departments and other 
entities that we consider our fire cooperators because we 
realize that that is a wide-ranging problem that we're dealing 
with, and we need the help of everyone.
    Senator Campbell. Let me also get a local perspective on 
this. There's a lot of devastating effects to a fire, but in an 
area like Colorado, it's not just the potential loss of life 
and property, it's also a potential loss in our economy, 
because we have a big recreation tourism economy.
    It's been said by some that they'd like to, you know, that 
the National Fire Plan should be just spent on prevention and 
stopping fires and that nature. Others have said, given that 
recreation and tourism is so important in a State like Colorado 
or Idaho or many of our mountain States, that maybe that we 
should also try to use some Federal money to mitigate the loss 
of jobs and recreation if it's been the result of a devastating 
fire. How do you feel about that?
    Mr. Wells. We'll, I have not seen any research or numbers 
on that, but certainly, I would----
    Senator Campbell. Well, I don't know if there is any. It's 
just been suggested by some of our colleagues. I don't even 
know if you'd have the money to do it in a deficit year, but--
--
    Mr. Wells. Well, I know that there certainly is that 
impact. And these sorts of incidents can have, you know, very 
broad-ranging effects, and people can be affected from a 
livelihood standpoint. I guess I wouldn't be in a position to 
offer any sort of an answer for you, Senator, on that.
    Mr. Hubbard. Senator, if I may?
    Senator Campbell. Yes, please.
    Mr. Hubbard. That's where this, the suggestion I have of 
community assistance does come in, to a certain extent. There's 
an element of the community assistance appropriation that 
provides the local counties with the ability to do 
comprehensive fire management planning in that they not only 
address suppression response, but they address mitigation, they 
address prevention, they address fire use, they aid the areas 
that are most important to them to protect for recreation 
values, for wildlife habitat values. So they, in effect, 
develop what could be an economic protection plan for that 
community, as well, tied to fire behavior.
    So I think there's--that's happening in eight counties in 
Colorado where they're implementing where they did not before 
this comprehensive approach that looks at all those factors. 
Then you add to it the economic action assistance that's in the 
fire plan, and they're able to implement part of that on a 
small scale. They're able to figure out what to do with some of 
that small-diameter material. They're able to create a few 
local jobs tied to the activity of the National Fire Plan.
    Senator Campbell. Well, certainly, you would, in gleaning 
the dead timber. Let me ask maybe a couple of rhetorical 
questions of Mike about maybe local feelings. I understood that 
there was a questionnaire done in Jackson, Wyoming, about an 
either/or kind of a questionnaire. If you only had limited 
resources, what's more important, putting out the fire on the 
homes or the forest? And a good number of those people said it 
was preferable to save the forest and lose the homes. Boy, 
that's sure liberal thinking in my perspective, but----
    Mr. Tombolato. Well, that's a choice----
    Senator Campbell. If you had an either/or, what do you do 
around here?
    Mr. Tombolato. That's a choice that's made both by fire 
managers on a regular basis. In fact, I've had to make it where 
I've been incident commander myself. When you arrive, you have 
homes that are threatened, you make a decision, usually, 
because the resources----
    Senator Campbell. Save the home and use the resources 
there, you let the----
    Mr. Tombolato. You have limited resources in county five, 
and do I do the direct attack on the fire or am I going to 
stand back here and defend the structures? And when you defend 
the structures, you don't suppress the fire, you split the head 
of it and send it around the house and continue the fire on to 
the next, wherever it's going.
    Senator Campbell. In this area here, if we had to measure 
fire and then measure a thunderstorm afterward, would it affect 
Golden's, or any of the communities here, the water supply?
    Mr. Tombolato. I do not specifically know about Golden. I 
know Denver water supply has been affected, as it's already 
been said here. But actually, you know, Buffalo Creek was only 
one. Every fire has actually, it happened on the Front Range, 
has now affected the Denver water supply. Denver water boards 
have many effects from Hi Meadows fire. The fire that happened 
in my area in 2000 also, the Eldorado fire, affected that 
watershed. So I would assume that we'll see continued 
activities that are going to affect everyone's water supplies 
in large-scale fire activities with the unnatural level of fire 
intensity that's occurring at this point.
    Mr. Cables. And if I may, if you think about it, Colorado 
is the headwaters of the Nation.
    Senator Campbell. Sure.
    Mr. Cables. This is the highest country we have on the 
continent.
    Senator Campbell. All but one river flow out.
    Mr. Cables. Any major fire we have in a watershed that 
destroys the integrity of that watershed has a major effect on 
water, either a community----
    Senator Campbell. Have they tracked, if you have a major 
fire in a watershed here that eventually goes into the Colorado 
or the Rio Grande, have they tracked downstream implications, I 
mean, way down? Have they been able to find sediment, for 
instance, in Nevada or California that was the cause of 
something at the headwaters?
    Mr. Cables. I'm not aware of any studies that actually 
measure what you just said, but certainly, locally, any time we 
lose a watershed, it's going to effect someone's water supply 
in this State. That's just the way it is.
    Mr. Hubbard. I think, Senator, when you open this up for 
the audience, that John Tolber might be able to respond to 
that.
    Senator Campbell. Who would?
    Mr. Hubbard. John Tolber.
    Senator Campbell. I might say that one of my big concerns, 
too, would be trying to find out how we could do a better job 
from the Federal level of providing resources or through 
legislation or the normal process we have there, so if, Mike, 
particularly, and Mr. Wells, you have any additional thoughts, 
if you could put them down in writing and get them to me, I 
would certainly appreciate it.
    And what I am going to do now is open it up to the 
community. If there's anybody who would like to speak to this, 
make comments or ask questions of the people who are the four 
experts, I say four, because I don't pretend to be one, we'll 
just take it first come, first serve. If you'll go to the 
microphone and state your name for the record so we can get 
that down, if you have anything printed that you would like to 
turn in, you're welcome to do that, and I'll take that back to 
be shared with the full Committee, too. Is there anyone who 
would like to make a statement? Yes, sir. Just go ahead over to 
the microphone. And if your name is complicated, more than 
about three or four letters, spell it, too, for the record, if 
you would.
    Mr. Young. Thank you, Senator. My name is Doug Young, and I 
represent--I'm here representing Congressman Mark Udall, and 
just wanted to welcome----
    Senator Campbell. Oh, we can find you.
    Mr. Young. So I just wanted to thank you for coming and 
thank the committee for coming. Regrettably, the Congressman 
couldn't be here. I know he would have very much welcomed to be 
a part of this and learned a lot from this conversation. I'll 
certainly take that back and share it with him. But I have 
brought with me, since he couldn't be here and regrets he 
couldn't be here, a statement that he'd like to share with you 
all and the committee and so----
    Senator Campbell. If you'll turn that in, we'll include 
that in the hearing record.
    Mr. Young. I will. Thank you again for coming.
    [The prepared statement of Representative Udall follows:]
      Prepared Statement of Hon. Mark Udall, U.S. Representative 
                             From Colorado
    Mr. Chairman and Members of the Committee, I regret that I am 
unable to be with you today. I am very glad you have come to Colorado 
for this hearing, because our state has a vital interest in seeing the 
National Fire Plan implemented effectively.
    That is because Colorado, like other Western states, has been 
experiencing ever more growth and development in and near forested 
areas. We are seeing more people, structures and investments placed at 
risk.
    It is this increasing risk to people and property--increasing 
because of growth as well as because of the unnatural forest conditions 
that we have created in many forests in Colorado through decades of 
fire suppression policies--that led to my interest in focusing on 
questions of wildfire management. And two particular things then lead 
me to take action.
    First, I took a tour of an area west of Boulder, Colorado, called 
Winiger Ridge. It is near an area where there was a major forest fire 
in 1989. Following that fire, a number of citizens, along with the 
Forest Service and Boulder County officials, got together to find a way 
to reduce the danger of a repetition of such a dangerous blaze. That 
group's efforts ultimately lead to the identification of conditions 
that lead to wildfire risks and the recommendation that some steps be 
taken to reduce that risk. The Winiger Ridge area was chosen as a 
location to explore some of these techniqueswhich involve some 
mechanical thinning and some controlled burning. When I toured this 
area and learned of the issues and the proposed strategy, I was struck 
by the condition of the forest--a condition of dense stands of small 
diameter trees--and, more importantly, I was very concerned about the 
homes and families that reside within this area. These homes and 
families are literally in the path of a possible major fire that could 
be devastating.
    It was important to identify this Winiger Ridge area because soon 
after my tour of it, another fire arose there in the summer of 2000, 
called the Walker Ranch fire. That fire threatened a number of mountain 
homes just west of Boulder. However, no structure was damaged because 
treatment with prescribed fire and vegetative thinning resulted in 
conditions that led the fire to drop to the ground and be more easily 
controlled. Had this not been done in previous years, the fire could 
have been much more devastating.
    That fire, and other devastating fires in Colorado and throughout 
the west, was the second event that strongly affected my thinking about 
this subject. I was interested in what I might do to address the 
problem and to try to lessen the dangers to our communities in ways 
that still recognized the need for sound management of forest lands and 
proper protection for their most sensitive areas.
    An early opportunity came when the House took up the appropriations 
bill for the Forest Service for fiscal year 2001. Reviewing the bill as 
it came to the floor, Representative Hefley and I were struck by the 
fact that the Appropriations Committee was proposing to reduce the 
funding for the wildland fire management account by some $4 million. In 
response, we offered an amendment to restore that funding that was 
approved by the House by a solid vote of 364 to 55.
    Then, after consulting a number of experts, I developed and 
introduced a bill intended to focus directly on our situation here in 
Colorado. It was cosponsored by Representative Hefley and by 
Representatives Tancredo and DeGette as well. To put it in its simplest 
terms, our bill was intended to promote and facilitate more efforts 
like the Winiger Ridge project, and thus help reduce the risk of a 
repeat of this past fire season, in the parts of Colorado that are at 
greatest risk of such disasters. That bill was not enacted itself, but 
its main principles were included in the fuel-reduction part of the 
National Fire Plan. And I have continued to work to make sure that this 
important fuel-reduction work was done the right way and in the right 
places.
    Since then, I have strongly supported the appropriation of funds 
for this purpose--but I have been concerned Congress has not done 
enough to spell out appropriate guidelines for their use, such as 
staying away from wilderness and roadless areas and ensuring that the 
projects are carefully targeted to protect the people who are at 
greatest risk from wildfires.
    We need to be very careful not to overcompensate for past 
shortcomings in working to reduce fuels. Fire is a natural part of our 
forests and eliminating fire from the landscape--as we tried to do for 
many years--was a big part of what produced the situation we now have. 
But the risks to people, property and the environment from creating 
this unnatural condition should not be used to justify a wholesale 
return to nearly-unrestricted timber cutting, as some seem to want.
    We need instead to have a careful, appropriate program of fuel 
reduction that is based on good science and focused where it is most 
needed--on the at-risk communities in the wildland/urban interface.
    And that is why I have been concerned about the way the fire plan 
has been implemented so far.
    As we all know, the fire plan has several components. All are 
important. But in terms of reducing the risks of red-zone communities, 
two stand out. One is assisting property owners to make their homes 
less vulnerable, by fire-wise landscaping and the like--also known as 
``defensible space.'' The other is fuel-reduction, the removal of 
brush, undergrowth, and mostly small-diameter trees from forest areas.
    Because I had some questions about the way the Forest Service, the 
Bureau of Land Management, and the other land-managing agencies have 
been implementing this part of the fire plan, I joined a number of our 
colleagues in asking the General Accounting Office (GAO) to review the 
steps the agencies have taken so far to see if improvements should be 
made.
    As you know, GAO now has completed that review and submitted a 
report that includes a number of recommendations. I thought the 
recommendations were sound. So I joined with the dean of our Colorado 
delegation, Representative Joel Hefley, and our neighbor, 
Representative Tom Udall of New Mexico, in introducing a bill to 
require that they be adopted.
    The GAO highlighted the need for two things: more and better 
interagency coordination; and better focus on identifying and 
responding to the highest-risk communities in the wildland/urban 
interface area.
    So, our bill called for establishment of an interagency 
coordinating council, and I was encouraged by the Administration's 
recent action to establish one.
    But additional steps are needed, as called for in our bill, so that 
fuel-reduction work will focus more tightly on protection of 
communities in the wildland/urban interface. Last month the three of us 
wrote to the Secretary of the Interior and the Secretary of Agriculture 
to urge that those steps be taken.
    Our letter said that, first, the new coordinating council should 
agree on a common definition of the ``wildland/urban interface.'' We 
strongly urged that the council use the interface definition used in 
our bill: a geographic area where: (A) homes and other structures are 
immediately adjacent to or intermixed with Federal public lands 
containing flammable vegetation; (B) the conditions on such lands are 
conducive to large-scale disturbance events; and (C) there is a 
significant probability of a fire ignition and a resulting spread of 
the disturbance event. This definition is based on one used in Colorado 
by the Colorado State Forest Service, and we think that it 
appropriately identifies the areas most in need of risk reduction.
    Then, we said, the council should immediately begin work on 
development of consistent criteria to identify the communities within 
the interface that are most at risk from severe wildfires. And, we 
urged that top priority be given to fuel-reduction projects that will 
directly and immediately reduce the risks to those communities. As a 
corollary to that point, we urged that projects not meeting that 
standard be deferred at least until all qualifying projects have been 
completed, to ensure an efficient use of resources and will reduce the 
potential for controversies that could delay effective action to reduce 
risks to the most endangered communities.
    So far, Mr. Chairman, we have not received an answer to our letter. 
However, I intend to persist in pressing for more focused 
implementation of the fire plan, and in particular for deferral of 
other projects until all that needs to be done has been done to reduce 
the risks to the most vulnerable communities in the ``red zone'' in 
Colorado and other Western states. I hope you and your colleagues will 
join in that effort.

    Senator Campbell. Thank you. Yes, sir? Just come on over 
here.
    Mr. Bramer. My name is Randy Bramer----
    Senator Campbell. B-r--for the record?
    Mr. Bramer. B-r-a-m-e-r. First of all, let me make a very 
significant disclosure. I'm a lawyer with the Office of General 
Counsel of USDA upstairs and represent the Forest Service. 
However, I'm not standing here in that capacity, but rather, in 
the capacity of a local resident.
    I live in Evergreen Park Estates in Evergreen, Colorado, 
which most recently was in the news as part of the Black 
Mountain fire. We were approximately 4 miles from that fire 
and, essentially, had an open space and two mountains dividing 
us from that fire.
    About a year and a half ago, I moved from Brook Forest Road 
where I was in what was an evacuation area this year and had 
the experience of having the Hi Meadows fire within 9 miles of 
that property. So my comments here today are in response to 
your invitation to have residents talk.
    And I guess I'd like to mention two points. First of all is 
the ability of the State, Federal or local governments to 
respond to wildland fire. I was extremely impressed with what 
was done at Black Mountain and what was done in Hi Meadows, and 
specifically with the ability of the Federal, State, and local 
governments to coordinate their activities. Needless to say, we 
in the Federal Government frequently have disputes with the 
States and the local governments, however, in the area of fire, 
I think the communication has been especially good.
    I did attend the close-out of the Snaking fire, and what I 
learned from that, I think, is that the State, local, and 
Federal Governments have learned their lessons from Hi Meadows, 
and most any mistakes that did occur there have largely been 
corrected.
    In summary, I guess what I feel, what I advised our home 
owners association 2 nights ago is, I think we have the best 
urban firefighters in the urban interface that we could ever 
have. I think they're probably the best in the country. I think 
the technology is good. I think the coordination efforts are 
excellent. I say that as a citizen, not as a lawyer. And I 
truly do believe that. And I think that word needs to get out. 
I think if you talk to people from Bailey who were most 
recently involved in the Snaking fire, I think they'll feel the 
same way, and I think there was a lot of outpouring.
    The second point I'd make would be going toward not 
fighting the fire but preparing for the fire to come to you. 
And I've only been in Idaho--or I came from Idaho, I've been in 
Colorado for 3 years. I've been through two of these fires. And 
let me tell you, it was fine when I was in Idaho and I drove up 
through low land and I saw the big low land burn and I saw all 
the black trees, and I thought, wildfire is awful. It was bad 
enough when Hi Meadows came nine miles away, but I thought, 
that's nine miles away. Snaking fire, again, hit home. It was 
close.
    Black Mountain was in my backyard. When that occurred, all 
of a sudden, I was out taking 120 33-gallon bags of pine 
needles off a half an acre of land. I was out bribing my 
garbage men to take enough fuel to burn my house down out of my 
front yard.
    And I think the experience has given me a couple thoughts. 
We need to help home owners help themselves to get this stuff 
done. Now, I know there's a lot of criticism. We chose to live 
in a dangerous place, and there's no question, you shouldn't be 
buying your houses because we have trees around them.
    On the other hand, I think the one thing we can do is look 
more toward outreach to home owners, more on how to protect 
your house from wildland fire. We have lots of programs on 
that, but I think library programs, big--as you go to Evergreen 
right now, and if you put up a sign saying, we're going to have 
a wildland-how-to-protect-your-home program at Evergreen Public 
Library, right now, in light of this fire, you're going to turn 
out several hundred people.
    Now, again, the folks who have been doing this for years 
say it ebbs and flows. Removal of slash, places to put stuff 
that we take out of our own property, in other words, people 
say, I don't have--we go to transfer stations up there, $80 a 
pickup load, $60 a pickup load, we might have 20 pickup loads 
of slash. Getting rid of the materials, but again, the home 
owners being aware, here is the danger, here is how to create a 
defensible space.
    And the third thing, I guess, that has shocked me is people 
naively believe that they save all the houses. They will save 
your house, no matter how little you have done. I don't think 
the concept of red tape across a driveway has really sunk into 
a lot of folks. And I don't think most people accept, burn my 
house down. I just live here, that's a fact of life. I think 
people just think they will be taken care of, in response to 
your earlier point.
    But again, the more we can educate people, the more we can 
help them create defensible space through the State, the local, 
and the Federal system. Hopefully, it will help us to better 
allocate our resource toward fighting the fires rather than 
simply having to spend all our time protecting homes that we, 
the home owners, could have done a better job protecting 
ourselves. Thank you.
    Senator Campbell. Thank you for that very nice statement. 
Well, I guess the only two upsides I know of a disaster is, 
number one, it brings people together, and, number two, it 
improves your hindsight. But as I understood Mike Tombolato to 
say, there are some educational programs now; is that correct, 
Mike? There are some ways of----
    Mr. Tombolato. Yeah, there's a number of State and county, 
even local-level educational programs. We at Colorado State 
also help sponsor what we--the Colorado State Wildfire 
Mitigation Conference every year that's held in September, 
that's been going on, I believe, since the Buffalo Creek fire. 
And the attendance is very good. And it's been a wonderful 
conference.
    Locally, though, I think, is where it really needs to occur 
first. And I think the grassroots effort at the fire protection 
district level and the county level is where it's most 
important. And we've seen, we have absolutely seen the effects 
of this. We've been doing it for five full years. We were very 
aggressively doing awareness and education in our mountainous 
communities, and it's seen in a direct relationship to other 
projects outside the district area.
    We are, of course, neighboring U.S. Forest Service land and 
other State and county lands, too, and the ecosystem management 
and fuel mitigation projects that are occurring on those lands 
have been supported by our community because they are aware of 
the benefits of it; whereas, in other communities nearby, 
there's been much more opposition to those types of projects 
occurring.
    So we see those effects, plus, we also see almost, in our 
little district area, we got 80 percent compliance on 
mitigation on defensible space on our properties.
    Senator Campbell. 80 percent?
    Mr. Tombolato. 80 percent, which is pretty much unheard of. 
But again, it has to do with a little bit of hindsight, too, 
because they've had fire occur. We haven't lost homes, but we 
were able to prove on our large fire in 2000 very, very 
drastically that if it wasn't for the area that the fire burned 
into that was treated, we would have never been able to 
suppress it and hold it in that place, and we probably would 
have lost homes. So we've had those indicators in our 
communities seen very closely.
    Senator Campbell. And I don't know how it works at local 
government, but I know at the Federal level, two things kind of 
happen; one is that if there's not sort of constant reminders, 
apathy sets in. We haven't had a fire out here in 20 years, why 
are they doing that? You know, that kind of a syndrome.
    And maybe the other one is that in, apparently, you're 
doing a very good job of getting the message out, but I know at 
the Federal level, we hear very often from people that, ``We 
didn't know that program was available,'' which means there's a 
disconnect between us putting it in place and the end guy who's 
going to be able to use it. And that's, I think, partially our 
fault at government level, any government. We're not letting 
people know enough of what they can avail themselves of to, or 
encourage them to do it.
    Mr. Tombolato. We spoil our constituents a little bit. I 
think part of what we do is they don't have to rely on 
anything. In fact, unless they actually want to get involved, 
they don't have to. We provide all services for them. We cut 
the material, pile the material, burn it, and chip it without 
them lifting a finger.
    Senator Campbell. At county cost?
    Mr. Tombolato. Well, this is through our fire protection 
district. And we believe--it was a commitment from the fire 
district that we believe that the prevention will outweigh 
anything that we can----
    Senator Campbell. So if somebody calls you up and says, I 
got this terrible brush problem around the house, I'm worried 
about a fire, will you come out and help me clear it out, you 
can do that.
    Mr. Tombolato. Yes, we do. We go right to the homeowner. We 
develop a plan for the entire property. And most of our acreage 
is 35 acres and above, so, you know, we have large acreage 
tract private particle cells in our district.
    Senator Campbell. Well, that may be one of the reasons you 
haven't had more structures burn down because of that 
preparation.
    Mr. Tombolato. Well, we believe that's the case. We think 
that the prevention is more important than what we call crow 
men in the fire stations, so we've dedicated a lot of our money 
to that.
    Senator Campbell. Now, anyone else in the audience, if you 
have any statements, now is the time. We're about done.
    Mr. Hubbard. While they're deciding, Senator Campbell, may 
I?
    Senator Campbell. Yes, please, go ahead.
    Mr. Hubbard. A couple of National Fire Plan assistance to 
prevention, National Fire Plan supports the National Fire 
Protection Association's Fire Wise program, so that gives us a 
national standard to use and a consistent message across the 
country, and every State endorses and uses Fire Wise as a 
prevention message.
    In addition, the fire plan helps us employ what we call 
prevention teams. So when we have large interface fires, we'll 
put a prevention team together in addition to the incident 
management team, send them to the area to help residents 
understand what's going on, follow up after the fire with 
residents about what they can do, so you capture that moment, 
and that comes from National Fire Plan's Fire Plan Support. 
We're also in Colorado piloting an experiment with the Red 
Cross. The Red Cross has made mitigation a more important part 
of their mission.
    Senator Campbell. So if people have to be housed in a local 
gymnasium for a while, you can count on Red Cross to help.
    Mr. Hubbard. They do that. But in addition, they're 
delivering the Fire Wise program locally through their 
chapters, and that's a huge assistance to us in getting that 
message out.
    Senator Campbell. Well, thank you. Well, I have no further 
questions. I certainly appreciate the testimony of all of our 
four witnesses and appreciate those of you who have come to 
even just listen if you have no comments.
    I guess I'm like every other American, I hate to see it 
happen, but it does not look like it's going to be a good year 
this year, and I hope we're well prepared, because even though 
fire has been one of the greatest discoveries of mankind, it's 
still, you know, when it's out of control, no man can stop it.
    Well, thank you very much. All this testimony will be 
included in the record and taken to our full committee, and 
we'll keep the record open 2 weeks if you have anything you 
want to send in that you forgot to say. Yes, sir?
    Mr. Dahl. In Mr. Cable's absence, I'd like to just 
participate in closing for the record to give you this and 
recognize your support.
    Senator Campbell. And I assume this is under the gift band 
limit.
    Mr. Dahl. And I want you to know, on the back is ``Safety 
First,'' and this is a fire hat for the National U.S. Forest 
Service.
    Senator Campbell. Safety First, do I have to wear that when 
I ride my motorcycle?
    Mr. Dahl. And I also would like to present you with, this a 
symbol of the wildfires and the fallen firefighters that we 
have.
    Senator Campbell. Thank you.
    Mr. Dahl. And last, a symbol of our Smokey program.
    Mr. Cables. And also, the tanker-based dedication down in 
Durango, June 30.
    Senator Campbell. For those of you who don't know, if I can 
just brag slightly, I got some money put into our interior 
appropriations bill a couple of years ago to build a new fire 
tanker station in southwest Colorado. As it is now, a number of 
our national forests, particularly the ones on the Western 
Slope and the southwest, to get fire tanker service, they have 
to come out of Albuquerque, I believe, don't they?
    Mr. Cables. Or Front Range.
    Senator Campbell. It means it's an hour flight down, an 
hour to load up, another hour back, and we've already heard how 
fast these things can travel. We're hoping that that base will 
be open this summer, and that will be of some benefit to help 
suppress the fires. And what was that date again?
    Mr. Cables. June 30.
    Senator Campbell. June 30. Thank you. And with that, I 
appreciate your being here, and this hearing is adjourned.
    [Whereupon, at 11:35 a.m. the hearing was adjourned.]

                                    

      

</pre></body></html>
